N o s . 1 9 -1 2 5 7 a n d 1 2 5 8

I n t he S u pre me C o urt of t he U nite d St ate s
M

A R K

B

R N O VI C H , A T T O R N E Y G E N E R A L O F
E T A L ., P E TI TI O N E R S

A

RI Z O N A

,

v.
D
A

E M O C R A TI C

RI Z O N A

R

N

A TI O N A L

E P U B LI C A N

P

C

O M MI T T E E

A R T Y ,E T A L

,E T

., P E TI TI

AL

.

O NE RS

v.
D

E M O C R A TI C

N

A TI O N A L

C

O M MI T T E E

,E T

AL

.

O N W RI T O F C E R TI O R A RI
T O T H E U NI T E D S T A T E S O F C O U R T O F A P P E A L S
F O R T H E NI N T H CI R C UI T

B RI E F O F S T A T E A N D L O C A L E L E C TI O N O F FI CI A L S
A S A MI CI C U RI A E I N S U P P O R T O F R E S P O N D E N T S
A A R O N J. S H A D D Y
W EI L , G O T S H A L & M A N G E S L L P
7 6 7 Fift h A v e n u e
N e w Y o r k, N Y 1 0 1 5 3
K AI T LI N P A U L S O N
W EI L , G O T S H A L & M A N G E S L L P
2 0 1 R e d w o o d S h or es P ar k w a y
R e d w o o d S h or es , C A 9 4 0 6 5

Z A C H A R Y D. T RI P P
C o u n s el of R e c o r d
W EI L , G O T S H A L & M A N G E S L L P
2 0 0 1 M St r e et N W
W a s hi n gt o n, D C 2 0 0 3 6
( 2 0 2) 6 8 2-7 0 0 0
z a c k.t ri p p @ w eil. c o m

T A B L E O F C O NT E NTS

I nt e r e st of a mi ci c u ri a e .................................................... 1
S u m m a r y of a r g u m e nt ..................................................... 3
A r g u m e nt .......................................................................... 5
I. S e cti o n 2 h el p s el e cti o n offi ci al s r u n el e cti o n s
t h at a r e effi ci e nt, f ai r, a n d s e c u r e .......................... 5
II. C o m pli a n c e wit h S e cti o n 2 i s n ot diffi c ult a n d
t h e st at ut e d o e s n ot c r e at e a sli p p e r y sl o p e ........ 1 0
A. S e cti o n 2 liti g ati o n i s r a r e a n d s u c c e s sf ul
v ot e -d e ni al c h all e n g e s a r e li mit e d t o
o utli e r p oli ci e s .................................................. 1 0
B. T h e o v e r w h el mi n g m aj o rit y of el e ct o r al
p oli ci e s r e a dil y w it h st a n d a S e cti o n 2
v ot e -d e ni al c h all e n g e ....................................... 2 1
C o n cl u si o n ....................................................................... 2 5

(i)

(ii)
T A B L E O F A U T H O RI TI E S
P a g e( s)
C as es

B a k e r v. C a r r ,
3 6 9 U. S. 1 8 6 ( 1 9 6 2) ................................................ 5
B e a r v. C o u nt y of J a c k s o n ,
N o. 5: 1 4 -c v -0 5 0 5 9, 2 0 1 7 W L 5 2 5 7 5
( D. S. D. J a n. 4, 2 0 1 7) ............................................ 1 5
B r a k e bill v. J a e g e r ,
9 3 2 F. 3 d 6 7 1 ( 8t h Ci r. 2 0 1 9) ................................ 2 0
B r a k e bill v. J a e g e r ,
N o. 1: 1 6 -c v -0 0 8, 2 0 1 6 W L 7 1 1 8 5 4 8
( D. N. D. A u g. 1, 2 0 1 6) ........................................... 1 4
B r o o k s v. G a nt ,
N o. 1 2 -c v -5 0 0 3 -K E S, 2 0 1 2 W L
4 4 8 2 9 8 4 ( D. S. D. S e pt. 2 7, 2 0 1 2) .......................... 2 0
B r o w n v. D et z n e r ,
8 9 5 F. S u p p. 2 d 1 2 3 6 ( M. D. Fl a. 2 0 1 2) ............... 2 0
C h e st n ut v. M e r rill ,
4 4 6 F. S u p p. 3 d 9 0 8 ( N. D. Al a. 2 0 2 0) .................. 1 5
C o m m o n C a u s e I n d. v. M a ri o n Ct y. El e cti o n B d. ,
3 1 1 F. S u p p. 3 d 9 4 9 ( S. D. I n d. 2 0 1 8) ............ 1 5 , 2 0
C o m m o n C a u s e / G e o r gi a v. Bill u p s ,
5 5 4 F. 3 d 1 3 4 0 ( 1 1t h Ci r. 2 0 0 9) ............................ 2 0
C o r d e r o v. Ki s n e r ,
N o. 3: 2 0 -c v -2 1 9 5 -J F A -P J G, 2 0 2 0 W L
5 2 3 0 8 8 8 ( D. S. C. S e p t. 1, 2 0 2 0) ............................ 1 5
D o n al d J. T r u m p f o r P r e si d e nt, I n c. v.
S e c r et a r y of P a. ,
8 3 0 F e d. A p p x . 3 7 7 ( 3 d Ci r. 2 0 2 0) ....................... 1 1
F r a n k v. W al k e r ,
7 6 8 F. 3 d 7 4 4 ( 7t h Ci r. 2 0 1 4) ................................ 2 0

(iii)

G o n z al e z v. A ri z o n a ,
6 7 7 F. 3 d 3 8 3 ( 9t h Ci r. 2 0 1 2) ................................ 2 0
G r e at e r Bi r mi n g h a m Mi ni st ri e s v. M e r rill ,
2 8 4 F. S u p p. 3 d 1 2 5 3 ( N. D. Al a. 2 0 1 8),
aff’ d , 9 6 6 F. 3 d 1 2 0 2 ( 1 1t h Ci r. 2 0 2 0) .................. 2 0
G ri g g s v. D u k e P o w e r C o. ,
4 0 1 U. S. 4 2 4 ( 1 9 7 1) .............................................. 2 2
H ot z e v. H olli n s ,
N o. 4: 2 0 -c v -0 3 7 0 9, 2 0 2 0 W L 6 4 3 7 6 6 8
( S. D. T e x. N o v. 2, 2 0 2 0) ....................................... 1 0
J a c o b v. B o a r d of Di r s. of t h e Littl e R o c k S c h. Di st. ,
N o. 4: 0 6 -c v -0 1 0 0 7 G T E, 2 0 0 6 W L 8 2 0 6 6 5 7 ( E. D.
A r k. S e pt. 1, 2 0 0 6) ............................................... 2 0
L e e v. Vi r gi ni a St at e B d. of El e cti o n s ,
1 8 8 F. S u p p. 3 d 5 7 7 ( E. D. V a. 2 0 1 6),
aff’ d , 8 4 3 F. 3 d 5 9 2 ( 4t h Ci r. 2 0 1 6) ...................... 2 0
L uft v. E v e r s ,
9 6 3 F. 3 d 6 6 5 ( 7t h Ci r. 2 0 2 0) ................................ 2 0
M e r rill v. P e o pl e Fi r st of Al a. ,
1 4 1 S. Ct. 2 5 ( 2 0 2 0) .............................................. 1 2
Mi F a mili a V ot a v. A b b ott ,
N o. 2 0 -5 0 9 0 7, 2 0 2 0 W L 6 4 9 8 9 5 8 ( 5t h
Ci r. O ct. 3 0, 2 0 2 0) ................................................ 1 5
Mi c hi g a n St at e A. P hili p R a n d ol p h I n st.
v. J o h n s o n ,
8 3 3 F. 3 d 6 5 6 ( 6t h Ci r. 2 0 1 6) ................................ 1 5
Mi c hi g a n St at e A. P hili p R a n d ol p h I n st.
v. J o h n s o n ,
N o. 1 6 -c v -1 1 8 4 4, 2 0 1 9 W L 2 3 1 4 8 6 1
( E. D. Mi c h. M a y 3 1, 2 0 1 9) ................................... 1 5

(i v)

Mi d dl et o n v. A n di n o ,
N o. 3: 2 0 -c v -0 1 7 3 0 -J M C, 2 0 2 0 W L 5 5 9 1 5 9 0
( D. S. C. S e pt. 1 8, 2 0 2 0), a p p e al fil e d , N o.
2 0 -2 0 2 2 ( 4t h Ci r. S e pt. 2 2, 2 0 2 0) ......................... 2 0
N a v aj o N ati o n H u m a n Ri g ht s C o m m’ n
v. S a n J u a n C o u nt y ,
2 1 5 F. S u p p. 3 d 1 2 0 1 ( D. Ut a h 2 0 1 6) .................. 2 0
N o rt h C a r oli n a St at e C o nf. of N A A C P v. M c C r o r y ,
8 3 1 F. 3 d 2 0 4 ( 4t h Ci r. 2 0 1 6) .................... 1 4 , 1 6 , 2 0
O hi o D e m o c r ati c P a rt y v. H u st e d ,
8 3 4 F. 3 d 6 2 0 ( 6t h Ci r. 2 0 1 6) ................................ 2 0
O hi o St at e C o nf. of N A A C P v. H u st e d ,
7 6 8 F. 3 d 5 2 4 ( 6t h Ci r. 2 0 1 4) ................................ 1 5
O n e Wi s. I n st. v. T h o m s e n ,
1 9 8 F. S u p p. 3 d 8 9 6 ( W. D. Wi s. 2 0 1 6) ................. 1 5
P a s c u a Y a q ui T ri b e v. R o d ri g u e z ,
2 0 2 0 W L 6 2 0 3 5 2 3, N o. 2 0 -c v -0 0 4 3 2 T U C -J A S ( D. A ri z. O ct. 2 2, 2 0 2 0) ........................ 2 0
P e o pl e Fi r st of Al a. v. S e c r et a r y of St at e f o r Al a. ,
N o. 2 0 -1 3 6 9 5 -B, 2 0 2 0 W L 6 0 7 4 3 3 3 ( 1 1t h Ci r.
O ct. 1 3, 2 0 2 0) ....................................................... 1 2
P e o pl e Fi r st v. M e r rill ,
N o. 2: 2 0 -c v -0 0 6 1 9 -A K K, 2 0 2 0 W L 5 8 1 4 4 5 5
( N. D. Al a. S e pt. 3 0, 2 0 2 0) .............................. 1 1 , 1 2
R e y n ol d s v. Si m s ,
3 7 7 U. S. 5 3 3 ( 1 9 6 4) ...................................... 5 , 6 , 2 3
S a n c h e z v. C e g a v s k e ,
2 1 4 F. S u p p. 3 d 9 6 1 ( D. N e v. 2 0 1 6) ............... 1 4 , 2 0
S h el b y C o u nt y v. H ol d e r ,
5 7 0 U. S. 5 2 9 ( 2 0 1 3) ................................ 8 , 9 , 1 4 , 1 6
S mit h v. S alt Ri v e r P r oj e ct A g r. I m p. & P o w e r Di st. ,
1 0 9 F. 3 d 5 8 6 ( 9t h Ci r. 1 9 9 7) ................................ 2 2

(v )

S pi rit L a k e T ri b e v. J a e g e r ,
N o. 1: 1 8 -c v -2 2 2, 2 0 2 0 W L 6 2 5 2 7 9
( D. N. D. F e b. 1 0, 2 0 2 0) ......................................... 2 0
T e x a s All. f o r R eti r e d A m s. v. H u g h s ,
9 7 6 F. 3 d 5 6 4 ( 5t h Ci r. 2 0 2 0) ................................ 1 5
T e x a s D e p’t of H o u s. & C mt y. Aff ai r s v.
I n cl u si v e C o m m u niti e s P r oj e ct, I n c. ,
5 7 6 U. S. 5 1 9 ( 2 0 1 5) .............................................. 2 2
T h o r n b u r g v. Gi n gl e s ,
4 7 8 U. S. 3 0 ( 1 9 8 6) ........................................ p a s si m
V e a s e y v. A b b ott ,
8 3 0 F. 3 d 2 1 6 ( 5t h Ci r. 2 0 1 6) ( e n b a n c) .... 1 4 , 1 6 , 2 0
W a n d e ri n g M e di ci n e v. M c C ull o c h ,
9 0 6 F. S u p p. 2 d 1 0 8 3 ( D. M o nt. 2 0 1 2) ................. 2 0
S t a t u t e s & C o n s ti t u ti o n al P r o vi si o n s
U. S. C o n st. a m e n d. X I V .............................................. 6
U. S. C o n st. a m e n d. X V ................................................ 6
4 2 U. S. C. 1 9 7 5 a ......................................................... 1 4
4 2 U. S. C. 1 2 1 0 1 et s e q. .............................................. 1 2
5 2 U. S. C. 1 0 3 0 1 ................................................. p a s si m
5 2 U. S. C. 1 0 3 1 0 ........................................................... 8
5 2 U. S. C. 2 0 1 0 2 ........................................................... 6
5 2 U. S. C. 2 0 5 0 1 et s e q. ................................................ 6
5 2 U. S. C. 2 0 9 0 1 et s e q. ................................................ 6
A ri z. C o n st. A rt. I I, § 2 1 .............................................. 7
C al. El e c. C o d e § 1 0 ..................................................... 7
C al. El e c. C o d e § 1 0. 5 ................................................ 2 3
C al. G o v’t C o d e § 1 2 1 7 2. 5 ........................................... 7
Fl a. St at. A n n. § 1 0 2. 0 3 1 .......................................... 2 3
M o nt. C o d e A n n. § 1 3 -1 -2 0 1 ........................................ 7
N. M. St at. A n n. § 1 -2 -1 ............................................... 7
N. Y. El e c. L a w § 3 -1 0 2 ................................................ 7

(vi )

N. D. C e nt. C o d e A n n. § 1 6. 1 -0 1 -0 1 ............................. 7
O kl a. St at. A n n. tit. 2 6, § 2 -1 0 7 .................................. 7
1 7 R. I. G e n. L a w s A n n. § 1 7 -6 -1 3 ............................... 7
T e x. El e c. C o d e A n n. § 3 1. 0 0 5 ................................... 2 3
W. V a. C o d e A n n. § 3 -1 A -5 ........................................ 2 3
W y o. St at. A n n. § 2 2 -2 -1 2 1 ....................................... 2 3
Mi s c ell a n e o u s
H. R. R e p. N o. 1 0 9 -4 7 8 ( 2 0 0 6) ...................................... 8
S. R e p. N o. 9 7 -4 1 7 ( 1 9 8 2) ...................................... 9 , 1 2
B r e n n a n C e nt e r f o r J u sti c e,
V oti n g Ri g ht s Liti g ati o n 2 0 2 0 ( J a n. 1 1, 2 0 2 1),
htt p s:// w w w. b r e n n a n c e nt e r. o r g/ o u r w o r k/ c o u rt -c a s e s/ v oti n g -ri g ht s -liti g ati o n-2 0 2 0
(l a st vi sit e d J a n. 1 9 , 2 0 2 1) ................................... 1 1
B r e n n a n C e nt e r f o r J u sti c e ,
V oti n g L a w s R o u n d u p ( D e c. 8, 2 0 2 0),
htt p s:// w w w. b r e n n a n c e nt e r. o r g/ o u r -w o r k/ r es e a r c h -r e p o rt s/ v oti n g -l a w s-r o u n d u p -2 0 2 0 -0
(l a st vi sit e d J a n. 1 9 , 2 0 2 1) ................................... 1 1
B r u c e M. Cl a r k e & R o b e rt Ti m ot h y R e a g a n,
R e di st ri cti n g Liti g ati o n, A n O v e r vi e w of L e g al,
St ati sti c al, a n d C a s e -M a n a g e m e nt I s s u e s ,
F e d e r al J u di ci al C e nt e r ( 2 0 0 2) ............................ 1 7
J o s h u a A. D o u gl a s, T h e Ri g ht t o V ot e U n d e r St at e
C o n stit uti o n s , 6 7 V a n d e r bilt L. R e v. 8 9 ( 2 0 1 4)..... 7
K at hl e e n H al e, et al. , A d mi ni st e ri n g El e cti o n s:
H o w A m e ri c a n El e cti o n s W o r k ( 2 0 1 5) ................. 1 2
D al e E. H o, V oti n g Ri g ht s Liti g ati o n Aft e r S h el b y
C o u nt y: M e c h a ni c s a n d St a n d a r d s i n S e cti o n 2
V ot e D e ni al Cl ai m s , 1 7 N. Y. U. J. L e gi s. & P u b.
P ol’ y 6 7 5 ( 2 0 1 4) .................................................... 1 7

(vii )

Ell e n D. K at z et al. , D o c u m e nti n g Di s c ri mi n ati o n
i n V oti n g: J u di ci al Fi n di n g s U n d e r S e cti o n 2
of t h e V oti n g Ri g ht s A ct Si n c e 1 9 8 2 ( 2 0 0 5) ........... 9
J u sti n L e vitt, L o y ol a L. S c h., W ritt e n T e sti m o n y
f o r t h e U. S. C o m m’ n o n Ci vil Ri g ht s, F e b. 2,
2 0 1 8 ...................................................................... 1 8
N ati o n al C o nf e r e n c e of St at e L e gi sl at u r e s , St at e
El e cti o n s L e gi sl ati o n D at a b a s e , ( O ct. 5, 2 0 2 0),
htt p s:// w w w. n c sl. o r g/ r e s e a r c h/ el e cti o n s -a n d c a m p ai g n s/ el e cti o n s -l e gi sl ati o n-d at a b a s e. a s p x
(l a st vi sit e d J a n. 1 9 , 2 0 2 1) ................................... 1 3
U . S. C o m m’ n o n Ci vil Ri g ht s, A n A s s e s s m e nt of
Mi n o rit y V oti n g Ri g ht s A c c e s s i n t h e U nit e d
St at e s 2 2 2 ( 2 0 1 8) ...................................... 1 3 , 1 4, 1 7
U . S. D e p’t of J u sti c e, S e cti o n 2 of t h e V oti n g
Ri g ht s A ct , htt p s:// w w w.j u sti c e. g o v/ c rt/ s e cti o n 2 -v oti n g -ri g ht s -a ct (l a st vi sit e d J a n. 1 9 , 2 0 2 1) .. 1 6
U. S. D e p’t of J u st i c e, V oti n g S e cti o n Liti g ati o n ,
htt p s:// w w w.j u sti c e. g o v/ c rt/ v oti n g -s e cti o n -litig ati o n (l a st vi sit e d J a n. 1 9 , 2 0 2 1) ....................... 1 6
U. S. El e cti o n A s si st a n c e C o m m’ n, El e cti o n
A d mi ni st r ati o n a n d V oti n g S u r v e y: 2 0 1 8
C o m p r e h e n si v e R e p o rt ( 2 0 1 9) .............................. 1 2

I n t he S u pre me C o urt of t he U nite d St ate s
N

M

A R K

B

R N O VI C

. 1 9 -1 2 5 7
H ,A T T O R N E Y G E N E R
E T A L ., P E TI TI O N E R S
O

AL OF

A

RI Z O N A

,

v.
D

E M O C R A TI C

N

A TI O N A L

N
A

RI Z O N A

R

E P U B LI C A

C

,E T

O M MI T T E E

. 1 9 -1 2 5 8
N P A R T Y ,E T

AL

.

O

AL

., P E TI TI

O NE RS

v.
D

E M O C R A TI C

N

A TI O N A L

C

,E T

O M MI T T E E

AL

.

O N W RI T O F C E R TI O R A RI
T O T H E U NI T E D S T A T E S C O U R T O F A P P E A L S
F O R T H E NI N T H CI R C UI T

B RI E F O F S T A T E A N D L O C A L E L E C TI O N O F FI CI A L S A S
A MI CI C U RI A E I N S U P P O R T O F R E S P O N D E N T S
I N T E R E S T O F A MI C I CU RI A E

1

A mi ci c u ri a e a r e c u r r e nt a n d f o r m e r st at e a n d l o c al
el e cti o n offi ci al s. A mi ci i n cl u d e offi ci al s f r o m 3 8 St at e s
a n d t h e Di st ri ct of C ol u m bi a a n d f r o m all diff e r e nt l e vel s of t h e el e ct o r al s y st e m. A mi ci c o m e f r o m l a r g e St at e s
P u r s u a nt t o S. Ct. R ul e 3 7. 6, c o u n s el f o r all p a rti e s h a v e c o ns e nt e d t o t h e fili n g of t hi s b ri ef. N o c o u n s el f o r a p a rt y a ut h o r e d t hi s
b ri ef i n w h ol e o r i n p a rt a n d n o p e r s o n o r e ntit y ot h e r t h a n a mi ci o r
c o u n s el m a d e a m o n et a r y c o nt ri b uti o n t o it s p r e p a r ati o n o r s u b mi ssi o n.
1

(1 )

2
a n d s m all St at e s; f r o m t h e N o rt h e a st C o r ri d o r t o t h e
D e e p S o ut h t o t h e G r e at Pl ai n s t o Al a s k a; f r o m u r b a n
c e nt e r s a n d r u r al c o u nti e s ; fr o m j u ri s di cti o n s t h at h a v e
n e v e r f a c e d S e cti o n 2 liti g ati o n, ot h e r s t h at s o m eti m e s
h a v e ( a s w ell a s s o m e t h at w e r e o n c e c o v e r e d u n d e r S e cti o n 5). T h e y i n cl u d e i n di vi d u al s w h o a r e c u r r e ntl y i n
offi c e, ot h e r s w h o a r e n o l o n g e r i n offi c e ( a n d e v e n o n e
w h o h a s r e c e ntl y b e e n a p p oi nt e d U. S. S e n at o r), a n d i ncl u d e i n di vi d u al s f r o m b ot h m aj o r p a rti e s.
St at e a n d l o c al el e cti o n offi ci al s a r e t h e p ri m a r y
st e w a r d s of o u r f e d e r al, st at e, a n d l o c al el e cti o n s. T h e
r e s p o n si bilit y f o r a d mi ni st e ri n g el e cti o n s i n t h e U nit e d
St at e s i s s h a r e d b y st at e a n d l o c al el e cti o n offi ci al s, a n d
t h e w a y t h e s e d uti e s a r e di st ri b ut e d v a ri e s b y St at e.
A mi ci i n cl u d e c u r r e nt a n d f o r m e r st at e wi d e offi ci al s,
w h o b e a r t h e ulti m at e a ut h o rit y f o r a d mi ni st e ri n g a n d
p r ot e cti n g el e cti o n s i n t h ei r j u ri s di cti o n s. A m o n g t h e s e
a r e 1 8 c u r r e nt o r f o r m e r s e c r et a ri e s of st at e, c h a r g e d
wit h e n s u ri n g t h e e q u al a p pli c ati o n of l a w s t o all v ot e r s
wit hi n t h ei r St at e s , i s s ui n g g ui d a n c e f o r t h e s m o ot h a n d
s e c u r e a d mi ni st r ati o n of el e cti o n s, p r o m ul g ati n g a dmi ni st r ati v e r ul e s, o v e r s e ei n g st at e v ot e r r e gi st r ati o n
s y st e m s, a n d p r o vi di n g c riti c al p u bli c i nf o r m ati o n o n
m a n y el e cti o n i s s u e s s u c h a s milit a r y a n d o v e r s e a s v oti n g, p olli n g pl a c e l o c ati o n s, a n d el e cti o n r e s ult s. I n a dditi o n t o st at e wi d e offi ci al s, a mi ci al s o i n cl u d e c u r r e nt
a n d f o r m e r l o c al el e cti o n offi ci al s, w h o s e titl e s r a n g e
f r o m c o u nt y c o m mi s si o n e r s t o m u ni ci p al cl e r k s t o s u p e rvi s o r s of el e cti o n s a n d w h o s e r v e vit al r ol e s a d mi ni st e ri n g el e cti o n s i n t h ei r c o m m u niti e s.
A mi ci h a v e d e v ot e d m u c h of t h ei r c a r e e r s a s p u bli c
s e r v a nt s t o e n s u ri n g t h at all eli gi bl e v ot e r s, i n f a ct, h a v e
a n e q u al o p p o rt u nit y t o c a st a m e a ni n gf ul b all ot. R a ci al

3
di s p a riti e s i n v oti n g a c c e s s a r e a n at h e m a t o g o o d el e cti o n a d mi ni st r ati o n. A d e ci si o n w e a k e ni n g S e cti o n 2 of
t h e V oti n g Ri g ht s A ct c o ul d u n d e r mi n e t h e eff o rt s of
a mi ci b y p r ot e cti n g f r o m l e g al c h all e n g e di s c ri mi n at o r y
o b st a cl e s t o e q u al v oti n g. A mi ci a c c o r di n gl y w rit e t o
s h a r e t h ei r e x p e ri e n c e t h at S e cti o n 2 i s b ot h a v al u a bl e
p a rt of el e cti o n a d mi ni st r ati o n a n d t h at it i s p e rf e ctl y
f e a si bl e t o c o n d u ct s u c c e s sf ul a n d s e c u r e el e cti o n s c o nsi st e nt wit h S e cti o n 2 .
A c o m pl et e li st of a mi ci i s att a c h e d a s A p p e n di x A.
S U M M A R Y O F AR G U M E N T

Alt h o u g h s o m e of t h e p a rti e s’ a r g u m e nt s i n t hi s c a s e
a r e li mit e d t o t h e t w o s p e cifi c A ri z o n a p oli ci e s at i s s u e,
p etiti o n e r s a n d s e v e r al of t h ei r a mi ci al s o l a u n c h
b r o a d e r c h all e n g e s t o t h e s c o p e of S e cti o n 2 ’ s p r ot e cti o n s. I n p a rti c ul a r, t h e y c o nt e n d t h at a p p l yi n g t h e f a ct o r s t hi s C o u rt s et f o rt h i n T h o r n b u r g v. Gi n gl e s , 4 7 8
U. S. 3 0 ( 1 9 8 6), a n d t h at t h e c o u rt s of a p p e al s h a v e a ppli e d f o r d e c a d e s , c r e at e s a sli p p e r y sl o p e u n d e r w hi c h
vi rt u all y a n y st at e o r l o c al el e cti o n l a w will b e v ul n e r abl e t o c h all e n g e, t h u s c r e ati n g a n i n s u r m o u nt a bl e o b st acl e t o r u n ni n g f r e e a n d f ai r el e cti o n s. S e e, e. g. , B r. of P riv at e P et s. 3 1; B r. of O hi o et al. 2 1 ; B r. of El e cti o n I nt e grit y P r oj e ct et al. 2 1 -2 2 ; B r. of G o v. D u c e y et al. 3; B r. of
S e n. C r u z et al. 2 4 -2 5 ; B r. of Wi s. M aj o rit y L e a d e r Fit zg e r al d et al. 9.
A mi ci fil e t hi s b ri ef t o e m p h a si z e t h ei r r e al-w o rl d e xp e ri e n c e t h at t h o s e c o n c e r n s a r e f u n d a m e nt all y mi spl a c e d. S e cti o n 2 i s a n i m p o rt a nt t o ol f o r e n s u ri n g t h at
all eli gi bl e v ot e r s, i n f a ct, h a v e a n e q u al o p p o rt u nit y t o
c a st a m e a ni n gf ul b all ot . I n d e e d, e n s u ri n g e q u al o p p o rt u nit y f o r all eli gi bl e v ot e r s t o v ot e i s t h e b a si c g o al of
el e cti o n a d mi ni st r ati o n, p r ot e ct e d b y m y ri a d f e d e r al
a n d st at e el e cti o n l a w s. S e cti o n 2 f o c u s e s s p e cifi c all y o n

4
eli mi n ati n g r a ci al di s p a riti e s i n o p p o rt u niti e s f o r c a sti n g a b all ot, w hi c h a r e a n at h e m a t o g o o d el e cti o n a d mi ni st r ati o n. S e cti o n 2 t h u s p r o vi d e s i m p o rt a nt p r ot e cti o n s
a g ai n st a r bit r a r y b a r ri e r s t o e q u al a c c e s s, wit h o ut r eq ui ri n g p r o of of di s c ri mi n at o r y i nt e nt. An d it pl a y s a
p a rti c ul a rl y i m p o rt a nt r ol e n o w t h at S e cti o n 5 , t h r o u g h
t h e a p pli c ati o n of S e cti o n 4( b), i s n o l o n g e r i n f o r c e. S e cti o n 2 i s t h u s a b o o n, n ot a b u r d e n, f o r t h e p r o p e r a dmi ni st r ati o n of t h e el e cti o n l a w s.
S e cti o n 2’ s i m p o rt a nt r ol e i s, h o w e v e r, a b o u n d e d
o n e. Alt h o u g h p etiti o n e r s a n d t h ei r a mi ci c o nt e n d t h at
a g g r e s si v e S e cti o n 2 liti g ati o n t h r e at e n s t o u s u r p t h e
r ol e of st at e a n d l o c al l a w i n a d mi ni st e ri n g el e cti o n s,
d e c a d e s of e x p e ri e n c e c o n d u cti n g el e cti o n s u n d e r S e cti o n 2 s h o w s t h at t h o s e all e g ati o n s a r e u nf o u n d e d .
Si n c e C o n g r e s s a d o pt e d t h e r e s ult s t e st i n 1 9 8 2, t e n s
of t h o u s a n d s of el e cti o n s h a v e b e e n c o n d u ct e d i n t h o us a n d s of j u ri s di cti o n s, wit h c o u ntl e s s el e cti o n l a w s a n d
p r a cti c e s a d mi ni st e r e d b y el e cti o n offi ci al s n ati o n wi d e.
T h e o v e r w h el mi n g m aj o rit y of t h o s e st at e a n d l o c al el e ct o r al p r a cti c e s h a v e b e e n i m pl e m e nt e d wit h o ut i nt e rf e re n c e f r o m S e cti o n 2 liti g ati o n. S e cti o n 2 liti g ati o n h a s
b e e n l a r g el y utili z e d i n t h e n a r r o w c o nt e xt of v ot e -dil uti o n ch all e n g e s t o at -l a r g e v oti n g p r a cti c e s. V ot e-d e ni al
c h all e n g e s t o ti m e, pl a c e, a n d m a n n e r p oli ci e s, li k e
t h o s e at i s s u e i n t hi s c a s e, c o nt e xt u ali z e d a g ai n st all t h e
p oli ci e s a n d p r a cti c e s u n d e rt a k e n b y el e cti o n a d mi ni st r at o r s, a r e i n di s p ut a bl y r a r e.
T h e r e i s n o s o u n d b a si s t o c o n cl u d e t h at, aft e r d e ca d e s of r el ati v e q ui e s c e n c e, t h e r e will s u d d e nl y b e a n e xpl o si o n i n S e cti o n 2 liti g ati o n c h all e n g e s t o r u n-of -t h emill v oti n g l a w s a n d p oli ci e s. I n a d diti o n t o t h e l e s s o n s
d r a w n f r o m r e al -w o rl d e x p e ri e n c e, t h e r e a r e m a n y l e g al
a n d p r a cti c al li mit s t o b ri n gi n g a s u c c e s sf ul S e cti o n 2

5
c h all e n g e. S e cti o n 2 v ot e -d e ni al c a s e s a r e u n u s u all y
c o m pl e x a n d e x p e n si v e t o liti g at e — a n d e v e n h a r d e r t o
wi n. T h e b u r d e n i s o n t h e pl ai ntiff, w h o f a c e s n u m e r o u s
b a r ri e r s t o s u c c e s s. T h o s e i n cl u d e t h e diffi c ult y of i d e ntif yi n g a n d p r o vi n g a di s p a r at e i m p a ct o n o p p o rt u niti e s
t o p a rti ci p at e i n t h e p oliti c al p r o c e s s, w hi c h t y pi c all y r eq ui r e s e xt e n si v e st ati sti c al e vi d e n c e; t yi n g t h e cl ai m e d
di s p a rit y t o hi st o ri c al di s c ri mi n ati o n, w hi c h si mil a rl y
r e q ui r e s c o m pl e x p r o of; a n d d e m o n st r ati n g t h at a c h all e n g e d l a w l a c k s a r e al a n d s u b st a nti al j u stifi c ati o n u nd e r t h e “t e n u o u s n e s s” i n q ui r y of Gi n gl e s , 4 7 8 U. S. at 3 7.
T h at l a st st e p c a n b e p a rti c ul a rl y diffi c ult i n a c h all e n g e
t o a f a ci all y l e giti m at e a nti -f r a u d m e a s u r e.
S e cti o n 2 t h u s h a s n ot, a s a p r a cti c al m att e r, p r o v e d
t o b e a r o a d bl o c k t o t h e eff e cti v e a d mi ni st r ati o n of st at e
a n d l o c al el e cti o n l a w s. T o t h e c o nt r a r y, it h a s s e r v e d a
vit al b ut c a bi n e d r ol e i n t h e a d mi n i st r ati o n of A m e ri c a n
el e cti o n s b y p r o vi di n g a b a c k st o p a g ai n st l a w s a n d p olici e s t h at h a v e m a r k e dl y di s c ri mi n at o r y i m p a ct s o n t h e
e q u alit y of o p p o rt u nit y t o p a rti ci p at e i n t h e p oliti c al p r oc e s s. T hi s C o u rt a c c o r di n gl y s h o ul d l e a v e i n pl a c e t h e
c o nt e xt -s p e cifi c a n d “i nt e n s el y l o c a l a p p r ai s al” t h at S e cti o n 2 a n d Gi n gl e s r e q ui r e , i d. at 7 8 ( cit ati o n o mitt e d),
a n d t h at t h e Ni nt h Ci r c uit a p pli e d b el o w.
A R G U M E NT
I.

S e c ti o n 2 h el p s el e c ti o n offi ci al s r u n el e cti o n s t h a t a r e
e ffi ci e n t, f ai r, a n d se c u r e

1. El e cti o n offi ci al s’ b a si c mi s si o n i s t o e n s u r e t h at
e v e r y eli gi bl e v ot e r i n f a ct h a s a n e q u al o p p o rt u n it y t o
c a st a m e a ni n gf ul b all ot a n d h a v e t h ei r v ot e c o u nt e d.
S e cti o n 2 of t h e V oti n g Ri g ht s A ct of 1 9 6 4, 5 2 U. S. C.
1 0 3 0 1, ali g n s wit h a n d c o m pl e m e nt s t h at b a si c mi s si o n.
I n m an y w a y s, S e cti o n 2 a s k s el e cti o n offi ci al s t o d o
w h at t h e y a r e al r e a d y c o m mitt e d t o d oi n g: p r ot e cti n g

6
t h e ri g ht of all citi z e n s t o v ot e o n e q u al t e r m s . S e e R e y nol d s v. Si m s , 3 7 7 U. S. 5 3 3, 5 6 2 ( 1 9 6 4) (“E s p e ci all y si n c e
th e ri g ht t o e x e r ci s e t h e f r a n c hi s e i n a f r e e a n d u ni mp ai r e d m a n n e r i s p r e s e r v ati v e of ot h e r b a si c ci vil a n d
p oliti c al ri g ht s, a n y all e g e d i nf ri n g e m e nt of t h e ri g ht of
citi z e n s t o v ot e m u st b e c a r ef ull y a n d m eti c ul o u sl y s c r uti ni z e d.”); s e e al s o B a k er v. C a r r , 3 6 9 U. S. 1 8 6, 2 3 7 ( 1 9 6 2).
At t h e o ut s et, st at e a n d l o c al el e cti o n offi ci al s m u st
a d mi ni st e r all el e cti o n s c o n si st e nt wit h t h e Fift e e nt h
A m e n d m e nt’ s g u a r a nt e e t h at “t h e ri g ht of citi z e n s of t h e
U nit e d St at e s t o v ot e s h all n ot b e d e ni e d o r a b ri d g e d …
o n a c c o u nt of r a c e, c ol o r, o r p r e vi o u s c o n diti o n of s e r vit u d e,” U. S. C o n st. a m e n d. X V , a n d t h e F o u rt e e nt h
A m e n d m e nt’ s g u a r a nt e e of e q u al p r ot e cti o n. S e e R e y nol d s , 3 7 7 U. S. at 5 5 5 (“T h e ri g ht t o v ot e f r e el y f o r t h e
c a n di d at e of o n e’ s c h oi c e i s of t h e e s s e n c e of a d e m o c r ati c
s o ci et y, a n d a n y r e st r i cti o n s o n t h at ri g ht st ri k e at t h e
h e a rt of r e p r e s e nt ati v e g o v e r n m e nt. ”).
St at e a n d l o c al e l e cti o n offi ci al s a r e al s o c hi efl y r es p o n si bl e f o r i m pl e m e nti n g a r a n g e of f e d e r al st at u t e s
t h at e n c o u r a g e all eli gi bl e v ot e r s t o v ot e . F o r e x a m pl e,
t he H el p A m e ri c a V ot e A ct of 2 0 0 2 , 5 2 U. S. C. 2 0 9 0 1 et
s e q. , e st a bli s h e s mi ni m u m st a n d a r d s f o r St at e s t o f oll o w
f o r s e v e r al a s p e ct s of el e cti o n a d mi ni st r ati o n, i n cl u di n g
f o r v oti n g s y st e m s, v ot e r r e gi st r ati o n d at a b a s e s, a n d
p r o vi si o n al b all ot s. Si mil a rl y, C o n g r e s s e n a ct e d t h e N ati o n al V ot e r R e gi st r ati o n A ct of 1 9 9 3 ( N V R A), 5 2 U. S. C.
2 0 5 0 1 et s e q. , t o c o m b at “ di s c ri mi n at o r y a n d u nf ai r r e gi st r ati o n l a w s … [t h at] di s p r o p o rti o n at el y h a r m v ot e r
p a rti ci p ati o n b y v a ri o u s g r o u p s, i n cl u di n g r a ci al mi n o riti e s.” 5 2 U. S. C. 2 0 5 0 1(a). T h e N V R A r e q ui r e s St at e s t o
e n a bl e p e o pl e t o r e gi st e r t o v ot e w hil e o bt ai ni n g o r r en e wi n g a d ri v e r’ s li c e n s e, a n d a s k s el e cti o n offi ci al s t o

7
m a k e m ail v ot e r r e gi st r ati o n f o r m s a v ail a bl e f o r di st rib uti o n . S e e 5 2 U. S. C. 2 0 5 0 1 -2 0 5 1 1. A n d u n d e r t h e V oti n g A c c e s si bilit y f o r t h e El d e rl y a n d H a n di c a p p e d A ct of
1 9 8 4, el e cti o n offi ci al s m u st al s o “ a s s u r e t h at all p olli n g
pl a c e s f o r F e d e r al el e cti o n s a r e a c c e s si bl e t o h a n dic a p p e d a n d el d e rl y v ot e r s.” 5 2 U. S. C. 2 0 1 0 2. St at e a n d
l o c al el e cti o n offi ci al s t a k e t h e l ea d i n a ct u all y p utti n g
t h o s e p r o vi si o n s i nt o o p e r ati o n.
A v a st b o d y of s t at e a n d l o c al l a w g ui d e s el e cti o n a dmi ni st r ati o n. I n a d diti o n t o st at e c o n stit uti o n al p r o visi o n s p r ot e cti n g t h e ri g ht t o v ot e, e. g. , A ri z. C o n st . A rt.
II, § 2 1; s e e J o s h u a A. D o u gl a s, T h e Ri g ht t o V ot e U n d e r
St at e C o n stit uti o n s , 6 7 V a n d e r bilt L. R e v. 8 9 , 1 0 1-1 0 6
(2 0 1 4 ), st at e l a w s p e cifi c all y r e q ui r e s el e cti o n offi ci al s t o
p r ot e ct t h e ri g ht t o v ot e a n d e n s u r e t h at el e cti o n s a r e
a d mi ni st e r e d f ai rl y t o e n a bl e t h e b r o a d e st p o s si bl e e xe r ci s e of t h e f r a n c hi s e . S e e, e. g. , C al. El e c. C o d e § 1 0
(t a s ki n g t h e s e c r et a r y of s t at e wit h p r o m ot i n g v ot e r r e gi st r ati o n, e n c o u r a gi n g eli gi bl e v ot e r s t o v ot e, a n d “[ p] r om ot [i n g] ci vi c l e a r ni n g a n d e n g a g e m e nt t o p r e p a r e st ud e nt s a n d n e w citi z e n s t o r e gi st e r t o v ot e a n d t o v ot e”);
C al. G o v ’t C o d e § 1 2 1 7 2. 5 ( p r o vi di n g t h at if t h e s e c r et a r y of st at e “ c o n cl u d e s t h at st at e el e cti o n l a w s a r e n ot
b e i n g e nf o r c e d,” t h e s e c r et a r y s h all “ c all t h e vi ol ati o n t o
t h e att e nti o n of t h e di st ri ct att o r n e y … o r t o t h e Att o rn e y G e n e r al”); M o nt. C o d e A n n. § 1 3 -1 -2 0 1 ( s e c r et a r y of
st at e “t o o bt ai n a n d m ai nt ai n u nif o r mit y i n t h e a p pli c ati o n, o p e r ati o n, a n d i nt e r p r et ati o n of t h e el e cti o n l a w s”);
N. M. St at. A n n. § 1 -2 -1 ( si mil a r ); N. Y. El e c. L a w § 3 1 0 2( 1 1 ) a n d (1 4) ( st at e b o a r d o f el e cti o n t o “t a ke all a pp r o p ri at e st e p s t o e n c o u r a g e t h e b r o a d e st p o s si bl e v ot e r
p a rti ci p ati o n i n el e cti o n s”); N. D. C e nt. C o d e A n n. § 1 6. 1 0 1 -0 1( 2)( a )-(b ) a n d (j) (s e c r et a r y of st at e t o “[ d] e v el o p

8
a n d i m pl e m e nt u nif o r m t r ai ni n g p r o g r a m s f o r all el e cti o n offi ci al s i n t h e st at e,” “[ p] r e p a r e i nf o r m ati o n f o r v ote r s o n v oti n g p r o c e d u r e s”, a n d “[ e] st a bli s h st a n d a r d s f o r
v oti n g p r e ci n ct s a n d p olli n g pl a c e s”); O kl a. St at. A n n.
tit. 2 6, § 2-1 0 7 ( s e c r et a r y of st at e t o “ p r o m ot e a n d e nc o u r a g e v ot e r r e gi st r ati o n a n d v ot e r p a rti ci p ati o n i n
el e cti o n s”); 1 7 R.I. G e n. L a w s A n n. § 1 7 -6 -1 3 ( s e c r et a r y
of st at e t o “i d e ntif y c o m m u niti e s wit hi n t h e st at e i n
n e e d of el e ct o r al p r o c e s s e d u c ati o n b y o ut r e a c hi n g c o mm u nit y o r g a ni z ati o n s” a n d t o “f u r ni s h el e ct or al p r o c e s s
e d u c ati o n t h r o u g h o ut t h e st at e”) .
2 . S e cti o n 2 c o m pl e m e nt s t h e g o al s of g o o d el e cti o n
a d mi ni st r ati o n b y s p e cifi c all y e n s u ri n g t h at e v e n a p p a re ntl y n e ut r al el e cti o n p r a cti c e s a n d p r o c e d u r e s m u st
n ot, i n f a ct, h a v e t h e i n vi di o u s eff e ct of d e p ri v i n g i n divi d u al s of a n e q u al o p p o rt u nit y t o p a rti ci p at e i n t h e p oliti c al p r o c e s s o n a c c o u nt of r a c e. 5 2 U. S. C. 1 0 3 0 1( b).
T h e f o c u s o n o ut c o m e s, r at h e r t h a n i nt e nt, i s e s p e ci all y
i m p o rt a nt gi v e n t h e p e r ni ci o u s n e s s of r a ci al di s c ri mi n ati o n a n d t h e li n g e ri n g c o n s e q u e n c e s of p a st di s c ri mi n ati o n i n A m e ri c a n s o ci et y. A s C o n g r e s s f o u n d w h e n r e e n a cti n g t h e V oti n g Ri g ht s A ct i n 2 0 0 6, “[ d]i s c ri mi n ati o n t o d a y i s m o r e s u btl e t h a n t h e vi si bl e m et h o d s u s e d
i n 1 9 6 5,” e v e n t h o u g h “t h e eff e ct a n d r e s ult s a r e t h e
s a m e, n a m el y a di mi ni s hi n g of t h e mi n o rit y c o m m unit y’ s a bilit y t o f ull y p a rti ci p at e i n t h e el e ct o r al p r o c e s s
a n d t o el e ct t h ei r p r ef e r r e d c a n di d at e s of c h oi c e.” H. R.
R e p . N o. 1 0 9 -4 7 8, at 6 ( 2 0 0 6).
B e c a u s e S e cti o n 2 d o e s n ot r e q ui r e d efi niti v e p r o of of
di s c ri mi n at o r y i nt e nt, a n d b e c a u s e it d efi n e s v oti n g t o
“i n cl u d e all a cti o n n e c e s s a r y t o m a k e a v ot e eff e cti v e,”
5 2 U. S. C. 1 0 3 1 0( c)( 1), S e cti o n 2 p r o vi d e s a p o w e rf ul t o ol
t o e n s u r e all v ot e r s h a v e t h ei r v oi c e s h e a r d b y p r ot e cti n g

9
t h e e q u al ri g ht t o v ot e wit h o ut r e g a r d t o r a c e . T h e V oti n g Ri g ht s A ct “ h a s p r o v e d i m m e n s el y s u c c e s sf ul at r ed r e s si n g r a ci al di s c ri mi n ati o n a n d i nt e g r ati n g t h e v oti n g p r o c e s s.” S h el b y C o u nt y v. H ol d e r , 5 7 0 U. S. 5 2 9, 5 4 8
( 2 0 1 3). A n d S e cti o n 2, w hi c h i s “ p e rm a n e nt” a n d “ a ppli e s n ati o n wi d e, ” pl a y s a vit al r ol e , e s p e ci all y n o w t h at
S e cti o n 5 i s n o t o p e r ati v e b e c a u s e t h e p r e -cl e a r a n c e f o rm ul a i s i n v ali d . I d. at 5 3 7.
F r o m t h e p oi nt of vi e w of a n el e cti o n offi ci al, S e cti o n
2 s e r v e s a s a n affi r m ati v e r e mi n d e r t h at “ v oti n g di sc ri mi n ati o n st ill e xi st s.” I d. at 5 3 6 . S e cti o n 2 di r e ct s
e l e cti o n offi ci al s t o r e m ai n e v e r -vi gil a nt t o t h e p r e s e n c e
of “ s o p hi sti c at e d r ul e s t o p r e v e nt a n eff e cti v e mi n o rit y
v ot e.” S. R e p. N o. 9 7 -4 1 7, at 6 ( 1 9 8 2) ( S e n at e R e p o rt ); s e e
al s o Ell e n D. K at z et al. , D o c u m e nti n g Di s c ri mi n ati o n i n
V oti n g: J u di ci al Fi n di n g s U n d e r S e cti o n 2 of t h e V oti n g
Ri g ht s A ct Si n c e 1 9 8 2 , at 1 1 ( 2 0 0 5) (“ F e d e r al j u d g e s a dj u di c ati n g S e cti o n 2 c a s e s o v e r t h e l a st t w e nt y-t h r e e
y e a r s h a v e d o c u m e nt e d a n e xt e n si v e r e c o r d of c o n d u ct
b y st at e a n d l o c al offi ci al s t h at t h e y h a v e d e e m e d r aci all y di s c ri mi n at o r y a n d i nt e nti o n all y s o.”). T hi s f o c u s
o n r e al -w o rl d di s p a riti e s ali g n s wit h t h e g o al s of el e cti o n
offi ci al s . R a ci al di s c ri mi n ati o n i s m o r e c o m pli c at e d t od a y t h a n it w a s i n 1 9 6 5, a n d el e cti o n offi ci al s a c c o r di n gl y s c r uti ni z e el e cti o n p r a cti c e s t o e n s u r e t h e y a r e n ot
r ei nf o r ci n g r a ci al di s c ri mi n ati o n t h r o u g h f a ci all y n e ut r al p oli ci e s. S e cti o n 2 b utt r e s s e s t h e s e eff o rt s b y p r o vi di n g a n e nf o r c e m e nt m e c h a ni s m a g ai n st s o p hi sti c at e d
m et h o d s of di s c ri mi n ati o n t h at all o w s c o u rt s t o e v al u at e
t h e s a m e c o nt e xt c o n si d e r e d b y el e cti o n offi ci al s.
T h e s e c o m pl e x t y p e s of di s c ri mi n ati o n m a y b e s u btl e
i n f o r m. Fo r e x a m pl e, it m a y b e e a s y t o a s s u m e t h at a ny b o d y c a n g et d o w n t o t h e p olli n g pl a c e a n d c a st a b all ot

10
in p e r s o n , o r t h at a n y b o d y c a n r e c ei v e a n a b s e nt e e b all ot b y m ail a n d t h e n g et d o w n t o t h e p o st offi c e t o s e n d
it i n. B ut s o m e c o n stit u e n ci e s f a c e r e al -w o rl d o b st a cl e s
t h at c a n m a k e t h o s e si m pl e -s o u n di n g st e p s q uit e diffic ult i n p r a cti c e a n d i n t u r n i m p e d e t h ei r o p p o rt u nit y t o
p a rti ci p at e i n t h e el e ct o r al p r o c e s s. F o r e x a m pl e, t h e
di st ri ct c o u rt b el o w n ot e d t h e l a c k of h o m e m ail s e r vi c e
i n r u r al S a n L ui s, w h e r e al m o st 1 3, 0 0 0 r e si d e nt s r el y o n
a p o st offi c e l o c at e d a c r o s s a m aj o r hi g h w a y. P et. A p p.
4 7 3 -4 7 5 . O r c o n si d e r t h e “ p a rti c ul a rl y a c ut e” p r o bl e m s
e x p e ri e n c e d b y s o m e of A ri z o n a’ s N ati v e A m e ri c a n c o mm u niti e s, w h e r e “[t] h e m aj o rit y of N ati v e A m e ri c a n s i n
n o n -m et r o p olit a n A ri z o n a d o n ot h a v e r e si d e nti al m ail
s e r vi c e.” I bi d. O n t h e N a v aj o R e s e r v ati o n, “ m o st p e o pl e
li v e i n r e m ot e c o m m u niti e s, m a n y c o m m u niti e s h a v e littl e t o n o v e hi cl e a c c e s s, a n d t h e r e i s n o h o m e i n c o mi n g
o r o ut g oi n g m ail, o nl y p o st offi c e b o x e s, s o m eti m e s
s h a r e d b y m ulti pl e f a mili e s.” I bi d.
St at e a n d l o c al el e cti o n a d mi ni st r at o r s f o c u s o n t h e s e
o n -t h e-g r o u n d r e aliti e s , n ot o n a b st r a ct p o s si biliti e s.
S e cti o n 2 s h a r e s t h at s a m e i nt e n s el y l o c al a n d p r a cti c al
f o c u s, a n d i n t u r n c o m pl e m e nt s a d mi ni st r at o r s’ g o al of
e n s u ri n g t h at all v ot e r s c a n, i n f a ct, e q u all y p a rti ci p at e
i n t h e el e ct o r al p r oc e s s, wit h o ut r e g a r d t o p a st o r c u rr e nt r a ci al di s c ri mi n ati o n.
I I. C o m pli a n c e wi t h S e c ti o n 2 i s n o t d iffi c ul t a n d t h e
s t a t u t e d o e s n o t c r e a t e a s li p p e r y s l o p e
A.

S e c ti o n 2 li ti g a ti o n i s ra r e a n d s u c c e s sf ul v o t e -d e ni al
c h all e n g e s a r e l i mi t e d t o o u tli e r p oli ci e s

1. Alt h o u g h S e cti o n 2 pl a y s a n i m p o rt a nt r ol e i n
g o o d el e cti o n a d mi ni st r ati o n, S e cti o n 2 liti g ati o n pl a y s
a v e r y li mit e d r ol e i n c o nt e m p o r a r y el e cti o n a d mi ni st r a-

11
ti o n. S e cti o n 2 liti g ati o n i s r a re, e s p e ci all y w h e n c o mp a r e d t o t h e b r o a d e r u ni v e r s e of l e g al c h all e n g e s f a c e d
b y s t at e a n d l o c al el e cti o n offi ci al s.
T hi s p a st y e a r i s a vi vi d e x a m pl e . A s a P r e si d e nti al
el e cti o n y e a r, 2 0 2 0 w a s p a rti c ul a rl y b u s y f o r el e cti o n liti g ati o n. La w s uit s r a n g e d f r o m p r e-el e cti o n c h all e n g e s t o
d ri v e -t h r u v oti n g, se e H ot z e v. H olli n s , N o. 4: 2 0-c v 0 3 7 0 9, 2 0 2 0 W L 6 4 3 7 6 6 8, at * 3 ( S. D. T e x. N o v. 2, 2 0 2 0),
t o p o st-el e cti o n c h all e n g e s t o p oll w at c hi n g a n d t h e c u ri n g of m ail-i n b all ot s, s e e D o n al d J. T r u m p f o r P r e sid e nt, I n c. v. S e c r et a r y of P a. , 8 3 0 F e d. A p p x . 3 7 7 , 3 8 2
( 3 d Ci r. 2 0 2 0); s e e B r e n n a n C e nt e r f o r J u sti c e, V oti n g
Ri g ht s Liti g ati o n 2 0 2 0 ( J a n. 1 1, 2 0 2 1) (t r a c ki n g v oti n g
ri g ht s liti g ati o n i n 2 0 2 0) .2
T h e C O VI D -1 9 p a n d e mi c al s o p ut g r e at st r e s s o n t h e
s y st e m f o r a d mi ni st e ri n g A m e ri c a n el e cti o n s. S t at e s
a n d l o c aliti e s a d o pt e d n u m e r o u s m e a s u r e s i n r e s p o n s e,
i n cl u di n g e x p a n d i n g a b s e nt e e o r m ail -i n v oti n g a s w ell
a s e a rl y v oti n g . S e e V oti n g L a w s R o u n d u p , B r e n n a n
C e nt e r f o r J u sti c e ( D e c. 8, 2 0 2 0) .3 M a n y St at e s a n d l oc aliti e s c o u pl e d t h o s e e x p a n si o n s wit h a nti -f r a u d
m e a s u r e s, i n cl u di n g st ri ct e r o r a d diti o n al v ot e r I D r eq ui r e m e nt s a n d li mit ati o n s o n t hi r d -p a rt y b all ot c oll e cti o n c a m p ai g n s. S e e i bid. El e cti o n offi ci al s r o s e t o t h e
o c c a si o n, s u c c e s sf ull y c o n d u cti n g t h e el e cti o n n ot wit hst a n di n g all of t h e s e c h a n g e s a n d c h all e n g e s.
T h o s e c o u ntl e s s c h a n g e s all w e nt i nt o pl a c e wit h o ut
m e a ni n gf ul i nt e rf e r e n c e f r o m S e cti o n 2 liti g ati o n. I nd e e d, alt h o u g h t h e r e w e r e m y ri a d a d a pt ati o n s t o el e cti o n l a w s a n d p oli ci e s i n r e s p o n s e t o t h e p a n d e mi c, t h e r e
htt p s:// w w w. b r e n n a n c e nt e r. o r g/ o u r -w o r k/ c o u rt -c a s e s/ v oti n g ri g ht s -liti g ati o n-2 0 2 0
3 htt p s:// w w w. b r e n n a n c e nt e r. o r g/ o u r -w o r k/ r e s e a r c h -r e p o rt s/ v oti n g-l a w s-r o u n d u p -2 0 2 0 -0
2

12
w e r e r el ati v el y f e w S e c ti o n 2 c h all e n g e s — a n d n o p a nd e mi c -r el at e d m e a s u r e w a s ulti m at el y bl o c k e d. F o r e xa m pl e, i n o n e r a r e S e cti o n 2 c h all e n g e, a di st ri ct c o u rt
i niti all y f o u n d t h at a n Al a b a m a l a w r e q ui ri n g t w o witn e s s e s a n d a p h ot o I D t o c a st a n a b s e nt e e b all ot vi ol at e d
S e cti o n 2 b e c a u s e t h o s e r e q ui r e m e nt s e x p o s e d Af ri c a n A m e ri c a n v ot e r s t o di s p a r at e ri s k s of c o nt r a cti n g
C O VI D -1 9 . S e e P e o pl e Fi r st v. M e r rill , N o. 2: 2 0 -c v 0 0 6 1 9 -A K K, 2 0 2 0 W L 5 8 1 4 4 5 5 ( N. D. Al a. S e pt. 3 0,
2 0 2 0). Wit hi n t w o w e e k s, h o w e v e r , t h e El e v e nt h Ci r c uit
st a y e d t h e i nj u n cti o n f o r t h e wit n e s s r e q ui r e m e nt a n d
t h e p h ot o I D r e q ui r e m e nt, s e e P e o pl e Fi r st of Al a. v. S e cr et a r y of St at e f o r Al a. , N o. 2 0-1 3 6 9 5 -B, 2 0 2 0 W L
6 0 7 4 3 3 3 ( 1 1t h Ci r. O ct. 1 3, 2 0 2 0) , s o t h e el e cti o n w e nt
f o r w a r d wit h t h o s e m e a s u r e s still i n pl a c e.4 S e cti o n 2
liti g ati o n t h u s w a s l a r g el y a n o n-i s s u e.
2. T h e r el ati v e l a c k of S e cti o n 2 liti g ati o n i n 2 0 2 0
mi r r o r s a m u c h l o n g e r p att e r n. T h o u g h c riti c s of S e cti o n
2 h a v e l o n g e x p r e s s e d c o n c e r n t h at S e cti o n 2’ s r e s ult s
t e st w o ul d r e s ult i n b o u n dl e s s a n d p r ot r a ct e d liti g ati o n,
s e e, e. g. , S e n at e R e p o rt 9 9 -1 0 3 ( R e m a r k s of S e n. H at c h),
t h o s e f e a r s h a v e n ot c o m e t o p a s s . O v e r t h e l a st 4 0
y e a r s, S e cti o n 2 liti g ati o n — a n d i n p a rti c ul a r S e cti o n 2
v ot e -d e ni al liti g ati o n— h a s p r o v e n t o b e r a r e.
In 2 0 1 8, t h e r e w e r e 6, 4 5 9 el e ct o r al j u ri s di cti o n s i n
t h e U nit e d St at e s (c o m p ri si n g 2 3 0, 8 7 1 p olli n g pl a c e s ).
T h e di st ri ct c o u rt al s o e nt e r e d a n i nj u n cti o n p u r s u a nt t o t h e
A m e ri c a n s wi t h Di s a biliti e s A ct ( A D A), 4 2 U. S. C. 1 2 1 0 1 et s e q. ,
a g ai n st a b a n o n c u r b si d e v oti n g. P e o pl e Fi r st of Al a. v. M e r rill , 2 0 2 0
W L 5 8 1 4 4 5 5 . Aft e r t h e El e v e nt h Ci r c uit d e cli n e d t o st a y t h at i nj u n cti o n o n a p p e al, s e e 2 0 2 0 W L 6 0 7 4 3 3 3 , t hi s C o u rt e nt e r e d a st a y,
s e e M e r rill v. P e o pl e Fi r st of Al a. , 1 4 1 S. Ct. 2 5 ( 2 0 2 0). T hi s c a s e
d o e s n ot p r e s e nt a n y q u e sti o n a b o ut t h e A D A.
4

13
S e e U. S. El e cti o n A s si st a n c e C o m m’ n, El e cti o n A d mi ni st r ati o n a n d V oti n g S u r v e y: 2 0 1 8 C o m p r e h e n si v e R ep o rt 4, 7 ( 2 0 1 9).5 E a c h of t h o s e j u ri s di cti o n s h a s b e e n
t h r o u g h m a n y el e c ti o n c y cl e s f o r m y ri a d diff e r e nt f e de r al, st at e, a n d l o c al offi c e s. E a c h St at e a n d l o c alit y h a s
it s o w n u ni q u e s et of el e cti o n l a w s a n d p oli ci e s. S e e
K at hl e e n H al e , et al. , A d mi ni st e ri n g El e cti o n s: H o w
A m e ri c a n El e cti o n s W o r k 5 1 ( 2 0 1 5). A n d el e cti o n l a w s
a r e c o n st a ntl y c h a n gi n g, wit h st at e l e gi sl atu r e s c o n si de ri n g o v e r 2 5 0 0 bill s r el at e d t o el e cti o n s a n d v oti n g i n
2 0 1 8 — a n d e n a cti n g o v e r 3 0 0. S e e N ati o n al C o nf e r e n c e
of St at e L e gi sl at u r e s , St at e El e cti o n s L e gi sl ati o n D at ab a s e ( O ct. 5, 2 0 2 0). 6
Y et S e cti o n 2 liti g ati o n h a s l eft u n di st u r b e d t h e v a st
m aj o rit y of t h at el e ct o r al a p p a r at u s o v e r ti m e . T h e
g r a p h b el o w d e pi ct s t h e n u m b e r of s u c c e s sf ul S e cti o n 2
c as es fr o m 1 9 5 7 t hr o u g h 2 0 1 4:

5 htt p s:// w w w. e a c. g o v/ sit e s/ d ef a ult/ fil e s/e a c _ a s s et s/ 1/ 6 / 2 0 1 8_ E A
V S _ R e p o rt. p df
6 htt p s:// w w w. n c sl. o r g/ r e s e a r c h/ el e cti o n s -a n d -c a m p ai g n s/ el e cti o n s-l e gi sl ati o n-d at a b a s e. a s p x

14
U. S. C o m m’ n o n Ci vil Ri g ht s, A n A s s e s s m e nt of Mi n o rit y
V oti n g Ri g ht s A c c e s s i n t h e U nit e d St at e s 2 2 2 ( 2 0 1 8)
(U S C C R R e p o rt ).7 A s it vi vi dl y ill u st r at e s, S e cti o n 2
cl ai m s w e r e al m o st n e v e r s u c c e s sf ul b ef o r e 1 9 8 2. T h e r e
w a s t h e n a m a r k e d i n c r e a s e i n t h e w a k e of C o n g r e s s ’ s
a m e n d m e nt of S e cti o n 2, w h e n a n u m b e r of v ot e -dil uti o n c h all e n g e s w e r e s u c c e s sf ul .
If S e cti o n 2 r e all y t h r e at e n e d a n y a n d all el e ct o r al
m e a s u r e s, a s p etiti o n e r s a n d t h ei r a mi ci s u g g e st, t h e n
o n e w o ul d e x p e ct t o s e e a c o n si st e ntl y l a r g e — a n d e v e r i n c r e a si n g— n u m b e r of s u c c e s sf ul S e cti o n 2 c a s e s d u ri n g t h e d e c a d e s si n c e 1 9 8 2 . It h a s n ot h a p p e n e d. I nst e a d, i n t h e mi d-1 9 9 0 s, t h e n u m b e r of s u c c e s sf ul S e cti o n 2 c a s e s f ell s h a r pl y. T h e y h a v e b e e n r a r e e v e r si n c e.
T o b e s u r e, i n t h e w a k e of S h el b y C o u nt y , t h e r e w a s
a n u pti c k i n S e cti o n 2 liti g ati o n a s j u ri s di cti o n s t h at
w e r e p r e vi o u sl y s u bj e ct t o t h e p r e cl e a r a n c e r e q ui r e m e nt
e n a ct e d m e a s u r e s t h at S e cti o n 5 , t h r o u g h S e cti o n 4( b)’ s
c o v e r a g e f o r m ul a, ot h e r wi s e w o ul d h a v e bl o c k e d. S e e
U S C C R R e p o rt 2 2 7 -2 2 8. B ut t h at i n c r e a s e w a s r el ati vel y s m all .
T h e U. S. C o m mi s si o n o n Ci vil Ri g ht s di d a d et ail e d
s u r v e y a n d d et e r mi n e d t h at , t o it s k n o wl e d g e, o nl y 6 1
c a s e s h a d b e e n fil e d u n d e r S e cti o n 2 si n c e S h el b y
C o u nt y , a n d o nl y 2 3 of t h o s e h a d b e e n s uc c e s sf ul a s of
2 0 1 8 . I d. 1 0, 2 2 7 -2 3 2 .8 O f t h o s e 2 3 s u c c e s sf ul s uit s , m o st
( 1 4) i n v ol v e d v ot e-dil uti o n . Onl y ni n e i n cl u d e d v ot e d eni al o r a b ri d g e m e nt. Ibi d. A n d t h o s e c a s e s e a c h i n v ol v e d

htt p s:// p e r m a. c c/ J 5 K 9 -J Z G N
T h e U. S. C o m mi s si o n o n Ci vil Ri g ht s i s a n i n d e p e n d e nt, bi p a rti s a n, f a ct-fi n di n g a g e n c y di r e ct e d b y C o n g r e s s t o e x a mi n e “[f] e d e r al
ci vil ri g ht s e nf o r c e m e nt eff o rt s.” 4 2 U. S. C. 1 9 7 5 a( c)( 1) ; s e e U S C C R
R e p o rt 7 .
7
8

15
a n i nt e n s el y l o c al a p p r ai s al of t h e a p pli c ati o n of a n a rr o w s et of c o nt r o v e r si al p oli ci e s i n s p e cifi c pl a c e s . T h o s e
i ncl u d e st ri ct e r v ot e r I D l a w s i n N o rt h C a r oli n a, N o rt h
D a k ot a, a n d T e x a s , se e N o rt h C a r oli n a St at e C o nf. of
N A A C P v. M c C r o r y , 8 3 1 F. 3 d 2 0 4 ( 4t h Ci r. 2 0 1 6); B r a k ebill v. J a e g e r , N o. 1: 1 6 -c v -0 0 8, 2 0 1 6 W L 7 1 1 8 5 4 8
( D. N. D. A u g. 1, 2 0 1 6); V e a s e y v. A b b ott , 8 3 0 F. 3 d 2 1 6
( 5t h Ci r. 2 0 1 6) ( e n b a n c); a l a c k of p olli n g sit e s i n N ev a d a a n d S o ut h D a k ot a , s e e S a n c h e z v. C e g a v s k e , 2 1 4
F. S u p p. 3 d 9 6 1 ( D. N e v. 2 0 1 6); B e a r v. C o u nt y o f J a c ks o n , N o. 5: 1 4 -c v -0 5 0 5 9 , 2 0 1 7 W L 5 2 5 7 5 ( D. S. D. J a n. 4,
2 0 1 7); r e st ri cti o n of e a rl y a n d a b s e nt e e v oti n g i n O hi o,
S o ut h D a k ot a, Wi s c o n si n , a n d I n di a n a, s e e O hi o St at e
C o nf. of N A A C P v. H u st e d , 7 6 8 F. 3 d 5 2 4 ( 6t h Ci r. 2 0 1 4);
B e a r , 2 0 1 7 W L 5 2 5 7 5 ; O n e Wi s. I n st. v. T h o m s e n , 1 9 8 F.
S u p p. 3 d 8 9 6 ( W. D. Wi s. 2 0 1 6); C o m m o n C a u s e I n d. v.
M a ri o n Ct y. El e cti o n B d. , 3 1 1 F. S u p p. 3 d 9 4 9 ( S. D. I n d.
2 0 1 8); a n d eli mi n ati o n of st r ai g ht -p a rt y v oti n g i n Mi c hi g a n, se e Mi c hi g a n St at e A. P hili p R a n d ol p h I n st. v.
J o h n s o n , 8 3 3 F. 3 d 6 5 6 ( 6t h Ci r. 2 0 1 6).9
S u c c e s sf ul S e cti o n 2 v ot e -d e ni al cl ai m s h a v e al s o
b e e n r a r e i n t h e y e a r s si n c e. B y a n d l a r g e, e v e n w h e r e
S e cti o n 2 cl ai m s w e r e r ai s e d r e g a r di n g c h a n g e s t o el e cti o n l a w a n d r ul e s i n 2 0 2 0, t h e y l a r g el y h a v e b e e n u ns u c c e s sf ul. S e e , e. g. , T e x a s All. f o r R eti r e d A m s. v.
9 M o r e o v e r, s e v e r al of t h e s e S e cti o n 2 c a s e s w e r e l at e r eit h e r r e nd e r e d m o ot o r ulti m at el y u n s u c c e s sf ul i n s u b s e q u e nt liti g ati o n. S e e
O n e Wi s. I n st. , 1 9 8 F. S u p p. 3 d 8 9 6 , r e v’ d s u b n o m. L uft v. E v e r s ,
9 6 3 F. 3 d 6 6 5, 6 8 1 ( 7t h Ci r. 2 0 2 0 ); H u st e d , 7 6 8 F. 3 d 5 2 4, v a c at e d a s
m o ot , N o. 1 4 -3 8 7 7 , 2 0 1 4 W L 1 0 3 8 4 6 4 7 ( 6t h. Ci r. O ct. 1, 2 0 1 4); Mi c hi g a n St at e A. P hili p R a n d ol p h I n st. v. J o h n s o n , N o. 1 6-c v -1 1 8 4 4,
2 0 1 9 W L 2 3 1 4 8 6 1 , at * 2 ( E. D. Mi c h. M a y 3 1, 2 0 1 9) ( e x pl ai ni n g t h at
Mi c hi g a n v ot e r s v ot e d t o a d d a n a m e n d m e nt t o t h ei r st at e c o n stit uti o n p r e s e r vi n g st r ai g ht ti c k et v oti n g, r e n d e ri n g m o ot t h e S e cti o n 2
cl ai m).

16
H u g h s , 9 7 6 F. 3 d 5 6 4 ( 5th Ci r. 2 0 2 0) ( g r a nti n g a st a y of
a S e cti o n 2 p r eli mi n a r y i nj u n cti o n); Mi F a mili a V ot a v.
A b b ott , N o. 2 0-5 0 9 0 7, 2 0 2 0 W L 6 4 9 8 9 5 8 , at * 1 ( 5t h Ci r.
O ct. 3 0, 2 0 2 0) ( s a m e); C o r d e r o v. Ki s n e r , N o. 3: 2 0-c v 2 1 9 5 -J F A -P J G, 2 0 2 0 W L 5 2 3 0 8 8 8 , at * 4 ( D. S. C. S e p t. 1,
2 0 2 0) ( di s mi s si n g a S e cti o n 2 cl ai m at t h e pl e a di n g
st a g e ), a d o pt e d b y 2 0 2 0 W L 5 7 4 2 8 0 2 ( D. S. C. S e pt. 2 5,
2 0 2 0) ; C h e st n ut v. M e r rill , 4 4 6 F. S u p p. 3 d 9 0 8, 9 1 5
( N. D. Al a. 2 0 2 0) (fi n di n g t h e S e cti o n 2 cl ai m m o ot).
O v e r all, t h e s e c h all e n g e s r e a c h o nl y a ti n y f r a cti o n of
t h e ele ct o r al l a w s a n d p oli ci e s n ati o n wi d e .
T h e D e p a rt m e nt of J u sti c e’ s liti g ati o n e x p e ri e n c e r efl e ct s a si mil a r p att e r n. DO J h a s b e e n e nf o r ci n g S e cti o n
2 f o r d e c a d e s, a p pl yi n g t h e f a mili a r Gi n gl e s f a ct o r s f r o m
t h e S e n at e R e p o rt, w hi c h D O J still hi g hli g ht s o n it s
w e b sit e. S e e D O J , S e cti o n 2 of t h e V oti n g Ri g ht s A ct ,
htt p s:// w w w.j u sti c e. g o v/ c rt/ s e cti o n -2 -v oti n g -ri g ht s -a ct .
Y et i n t h e d e c a d e s si n c e C o n g r e s s a m e n d e d S e cti o n 2 ,
D O J h a s b r o u g ht o nl y 3 8 S e cti o n 2 c a s e s, a c c o r di n g t o
it s o w n fi g u r e s. S e e D O J , V oti n g S e cti o n Liti g ati o n ,
htt p s:// w w w.j u sti c e. g o v/ c rt/ v oti n g -s e cti o n -liti g ati o n.
M o st of t h o s e c a s e s h a v e f o c u s e d o n at-l a r g e v oti n g p r a cti c e s t h at c a u s e v ot e dil uti o n.
S i n c e S h el b y C o u nt y , D O J h a s b r o u g ht o nl y t w o S e cti o n 2 e nf o r c e m e nt a cti o n s i n v ol vi n g v ot e-d e ni al cl ai m s .
I n o n e , D O J c h all e n g e d a N o rt h C a r oli n a o m ni b u s el e cti o n s bill t h at, a m o n g ot h e r t hi n g s, d r a m ati c all y c ut t h e
p e ri o d f o r e a rl y v oti n g, e li mi n at e d s a m e d a y r e gi st r ati o n, p r e v e nt e d t h e c o u nti n g of o ut -of -p r e ci n ct p r o visi o n al b all ot s, a n d a d o pt e d st ri n g e nt n e w v ot e r I D r eq ui r e m e nt s . S e e M c C r o r y , 8 3 1 F. 3 d 2 0 4 . Aft e r t h r e e
y e a r s of liti g ati o n a n d m ulti pl e a p p e al s, D O J w a s ultim at el y s u c c e s sf ul i n p r o vi n g b ot h a n i m p e r mi s si bl e di sc ri mi n at o r y eff e ct a n d i nt e nti o n al di s c ri mi n ati o n. S e e

17
i bi d. I n t h e ot h e r, D O J j oi n e d a n u m b e r of i n di vi d u al s
a n d a d v o c a c y g r o u p s c h all e n gi n g T e x a s’ s v oti n g i d e ntifi c ati o n l a w. S e e V e a s e y , 8 3 0 F. 3 d 2 1 6 . T e x a s l at e r
a m e n d e d it s l a w a n d D O J d r o p p e d t h e cl ai m. S e e i bi d.
D O J h a s n ot p u r s u e d a n y ot h e r S e cti o n 2 v ot e -d e ni al
c h all e n g e s .
3. S e cti o n 2 c a s e s a r e r a r e i n p a rt b e c a u s e t h e y a r e
a m o n g t h e h a r d e st c a s e s t o liti g at e i n f e d e r al c o u rt. A
S e cti o n 2 pl ai ntiff m u st i d e ntif y a l a w o r p r a cti c e t h at
c o n stit ut e s a “ d e ni al o r a b ri d g e m e nt of t h e ri g ht … t o
v ot e,” 5 2 U. S. C. 1 0 3 0 1( a), b y s h o wi n g t h at “t h e p oliti c al
p r o c e s s e s … a r e n ot e q u all y o p e n t o p a rti ci p ati o n b y ”
m e m b e r s of a r a ci al g r o u p “ i n t h at it s m e m b e r s h a v e
l e s s o p p o rt u nit y t h a n ot h e r m e m b e r s of t h e el e ct o r at e t o
p a rti ci p at e i n t h e p oliti c al p r o c e s s a n d t o el e ct r e p r es e nt ati v e s of t h ei r c h oi c e.” 5 2 U. S. C. 1 0 3 0 1( b). I n m a ki n g it s ca s e, a S e cti o n 2 pl ai ntiff b e a r s t h e b u r d e n of
p r o of. S e e Gi n gl e s , 4 7 8 U. S. at 4 6. A n d p r o vi n g b ot h t h e
di s p a r at e i m p a ct a n d a ll t h e ot h e r f a ct o r s r el e v a nt u nd e r t h e t ot alit y of t h e ci r c u m st a n c e s “ o r di n a ril y i n v ol v e s
a c o n si d e r a bl e a m o u nt of st ati sti c al e v i d e n c e d e ri v e d
f r o m p o p ul ati o n fi g u r e s, d e m o g r a p hi c s, a n d v ot e r b eh a vi o r,” w hi c h r e q ui r e s r eli a n c e o n e x p e rt s a n d c o n si de r a bl e c o st . S e e B r u c e M. Cl a r k e & R o b e rt Ti m ot h y
R e a g a n, R e di st ri cti n g Liti g ati o n, A n O v e r vi e w of L e g al,
St ati sti c al, a n d C a s e -M a n a g e m e nt I s s u e s , F e d e r al J u dici al C e nt e r 1 0 ( 2 0 0 2). 1 0
E x p e ri e n c e d p r a ctiti o n e r s i n t h e fi el d r e p o rt t h at
S e cti o n 2 c a s e s a r e “i n a cl a s s of t h ei r o w n” w h e n it
c o m e s t o t h e ti m e, e x p e n s e, a n d c o m pl e xit y of p r o of r eq ui r e d. D al e E. H o, V oti n g Ri g ht s Liti g ati o n Aft e r S h el b y

10

htt p s:// w w w.fj c. g o v/ sit e s/ d ef a ult/fil e s/ 2 0 1 2/ R e di st ri. p df

18
C o u nt y: M e c h a ni c s a n d St a n d a r d s i n S e cti o n 2 V ot e D eni al Cl ai m s , 1 7 N. Y. U. J. L e gi s. & P u b. P ol’ y 6 7 5, 6 8 2 -8 3
( 2 0 1 4). T h at liti g ati o n c a n b e c o st -p r o hi biti v e, p a rti c ul a rl y w h e n “ s e e ki n g t o c h all e n g e v oti n g c h a n g e s at t h e
l o c al l e v el.” I bi d. A n d e v e n w h e n a g r o u p c a n b e a r t h e
c o st s of liti g ati o n , “[ p] ri v at e e ntiti e s wit h d e v el o p e d e xp e rti s e i n v oti n g ri g ht s liti g ati o n m a y b e a bl e t o m u st e r
a c h all e n g e t o at m o st a f e w p oli ci e s at a ti m e, a n d oft e n
n o m o r e t h a n o n e.” U S C C R R e p o rt 2 6 6 ( q u oti n g J u sti n
L e vitt, L o y ol a L. S c h., W ritt e n T e sti m o n y f o r t h e U. S.
C o m m’ n o n Ci vil Ri g ht s, F e b. 2, 2 0 1 8 at 1 2 -1 3 ). M o r e ov e r, “ S e cti o n 2 l a w s uit s oft e n t a k e y e a r s ” t o liti g at e t o
f r uiti o n. I d. at 9. A n d u nl e s s t h e pl ai ntiff s u c c e e d s i n o bt ai ni n g t h e e xt r a o r di n a r y r eli ef of a p r eli mi n a r y i nj u n cti o n, t h e p e n di n g s uit will “n ot p r e v e nt el e cti o n s f r o m
o c c u r ri n g u n d e r p r o c e d u r e s l at e r f o u n d t o b e di s c ri min at o r y.” Ibi d.
4 . I n p r a cti c e, S e cti o n 2 liti g ati o n t h u s d o e s n ot i mp a ct t h e o v e r w h el mi n g m aj o rit y of d a y -t o-d a y el e cti o n
a d mi ni st r ati o n. I n st e a d, S e cti o n 2 liti g ati o n h a s t y pic all y b e e n li mit e d t o o utli e r p oli ci e s o r p oli ci e s t h at, d u e
t o a c o nfl u e n c e of u n u s u al l o c al ci r c u m st a n c e s, h a v e a n
o utli e r di s p a r at e i m p a ct i n a s p e cifi c j u ri s di cti o n.
P etiti o n e r s a n d t h ei r a mi ci n ot e t h at s o m e of t h e p oli ci e s t h at h a v e b e e n c h all e n g e d, li k e v ot e r I D l a w s a n d
o ut -of -p r e ci n ct p oli ci e s, a r e f ai rl y c o m m o n. B ut t h o s e
p oli ci e s a r e s u bj e ct t o li a bilit y o nl y w h e n a u ni q u e c o nfl u e n c e of l o c al ci r c u m st a n c e s p r o d u c e s di s c ri mi n at o r y
r e s ult s. T hi s i s cl e a r b y l o o ki n g at c o m m o n p oli ci e s t h at
h a v e b e e n s u bj e ct t o s o m e S e cti o n 2 c h all e n g e s o v e r t h e
l a st fift e e n y e a r s: li mit ati o n o n t hi r d-p a rt y b all ot c oll e cti o n, r ej e cti o n of o ut-of -p r e ci n ct b all ot s, e a rl y v oti n g,
a n d v ot e r I D r e q ui r e m e nt s. Alt h o u g h m a n y St at e s h a v e

19
t h o s e p oli ci e s, f e w St at e s h a v e f a c e d S e cti o n 2 c h all e n g e s t o t h o s e p oli ci e s— a n d s u c c e s sf ul c h all e n g e s a r e
e v e r r a r e r:
C o m m o n V oti n g P oli ci e s a n d S e cti o n 2
B all ot C oll e cti o n

1

O O P R ej e cti o n

38

2
26

2
2

E a rl y V oti n g

3

V ot e r I D

43

11

4
0

St at e s wit h p oli c y

35

9
10

20
T ot al S uit s

30

40

50

S u c c e s sf ul S uit s

S p e cifi c all y, all 5 0 St at e s c u r r e ntl y h a v e a t l e a st o n e
t h e s e f o u r p oli ci e s: 3 8 St at e s h a v e p r o vi si o n s r e g ul ati n g
b all ot c oll e cti o n; 2 6 St at e s h a v e p r o vi si o n s b a r ri n g t h e
c o u nti n g of o ut -of -p r e ci n ct b all ot s; 4 3 St at e s h a v e p r o visi o n s r e g ul ati n g e a rl y v oti n g; a n d 3 5 St at e s h a v e ( o r r ec e ntl y h a d) p r o vi si o n s i m p o si n g v ot e r I D r e q ui r em e nt s. 1 1 Y et of t h o s e 1 4 2 p oli ci e s i n all of t h o s e St at e s,
o nl y a h a n df ul h a v e b e e n s u c c e s sf ul l y c h all e n g e d u n d e r

A f ull li st of st at e p r o vi si o n s i s r e p r o d u c e d i n A p p e n di x B. H aw aii r e c e ntl y eli mi n at e d p ri o r p r o vi si o n s i m p o si n g v ot e r I D r e q ui r em e nt s. S e e 2 0 1 9 H a w. S e s s. L a w s 1 3 6 § § 4 9 -5 2.
11

20
S e cti o n 2 i n t h e l a st 1 5 y e a r s.1 2 U n s u c c e s sf ul c h all e n g e s
a r e m o r e c o m m o n. 1 3 T h e l a r g e m aj o rit y of t h e s e p oli ci e s
h a v e n e v e r f a c e d a S e cti o n 2 c h all e n g e .
T h e r e i s t h u s n o s o u n d b a si s t o c o n cl u d e t h at S e cti o n
2 c r e at e s a sli p p e r y sl o p e t h at t h r e at e n s r u n-of -t h e-mill
st at e a n d l o c al el e cti o n a d mi ni st r ati o n. D e c a d e s of e x p eri e n c e i n a ct u al el e cti o n s s h o w s t h at S e cti o n 2 liti g ati o n,
a n d S e cti o n 2 v ot e -d e ni al liti g ati o n i n p a rti c ul a r, i s r a r e
T h e s u c c e s sf ul c h all e n g e s a r e i n t hi s c a s e a s w ell a s V e a s e y , 8 3 0
F. 3 d 2 1 6 ( V ot e r I D); M c C r o r y , 8 3 1 F. 3 d 2 0 4 ( V ot e r I D, E a rl y V oti n g,
O O P R ej e cti o n s) ; B r a k e bill v. J a e g e r , 9 3 2 F. 3 d 6 7 1 ( 8t h Ci r. 2 0 1 9)
(V ot e r I D) ; S pi rit L a k e T ri b e v . J a e g e r , N o. 1: 1 8-c v -2 2 2 , 2 0 2 0 W L
6 2 5 2 7 9 ( D.N. D. F e b. 1 0, 2 0 2 0) ( s a m e, a n d l at e r c o n s oli d at e d wit h
t h e c h all e n g e i n B r a k e bill , w h e r e u p o n t h e p a rti e s e nt e r e d i nt o a
c o n s e nt d e c r e e); C o m m o n C a u s e I n d. v. M a ri o n Ct y. El e cti o n B d. ,
3 1 1 F. S u p p. 3 d 9 4 9 ( S. D. I n d. 2 0 1 8) ( E a rl y V oti n g); S a n c h e z v.
C e g a v s k e , 2 1 4 F. S u p p. 3 d 96 1 ( D. N e v. 2 0 1 6) ( s a m e).
1 3 U n s u c c e s sf ul c h all e n g e s i n cl u d e F r a n k v. W al k e r , 7 6 8 F. 3 d 7 4 4
( 7t h Ci r. 2 0 1 4) ( Vot e r I D) ; G o n z al e z v. A ri z o n a , 6 7 7 F. 3 d 3 8 3 ( 9t h
Ci r. 2 0 1 2) ( s a m e ); G r e at e r Bi r mi n g h a m Mi ni st ri e s v. M e r rill , 2 8 4 F.
S u p p. 3 d 1 2 5 3 ( N. D. Al a. 2 0 1 8) (s a m e ), aff’ d , 9 6 6 F. 3 d 1 2 0 2 ( 1 1t h
Ci r. 2 0 2 0) ; C o m m o n C a u s e / G e o r gi a v. Bill u p s , 5 5 4 F. 3 d 1 3 4 0 ( 1 1t h
Ci r. 2 0 0 9) ( s a m e ); L e e v. Vi r gi ni a St at e B d. of El e cti o n s , 1 8 8 F. S u p p.
3 d 5 7 7 ( E. D. V a. 2 0 1 6) ( s a m e ), aff’ d , 8 4 3 F. 3 d 5 9 2 ( 4t h Ci r. 2 0 1 6);
L uft v. E v e r s , 9 6 3 F. 3 d 6 6 5 ( 7t h Ci r. 2 0 2 0) ( E a rl y V oti n g); N a v aj o
N ati o n H u m a n Ri g ht s C o m m’ n v. S a n J u a n C o u nt y , 2 1 5 F. S u p p.
3 d 1 2 0 1 ( D. Ut a h 2 0 1 6) ( s a m e ); W a n d e ri n g M e di ci n e v. M c C ull o c h ,
9 0 6 F. S u p p. 2 d 1 0 8 3 ( D. M o nt. 2 0 1 2) ( s a m e ); B r o o k s v. G a nt , N o.
1 2 -c v -5 0 0 3 -K E S , 2 0 1 2 W L 4 4 8 2 9 8 4 ( D. S. D. S e pt. 2 7, 2 0 1 2) ( s a m e );
B r o w n v. D et z n e r , 8 9 5 F. S u p p. 2 d 1 2 3 6 ( M. D. Fl a. 2 0 1 2) (s a m e );
O hi o D e m o c r ati c P a rt y v. H u st e d , 8 3 4 F. 3 d 6 2 0 ( 6t h Ci r. 2 0 1 6)
(s a m e ); P a s c u a Y a q ui T ri b e v. R o d ri g u e z , 2 0 2 0 W L 6 2 0 3 5 2 3 , N o. 2 0 c v -0 0 4 3 2 -T U C -J A S ( D. A ri z. O ct. 2 2, 2 0 2 0) ( s a m e ); J a c o b v. B o a r d
of Di r s. o f t h e Littl e R o c k S c h. Di st., N o. 4: 0 6 -c v -0 1 0 0 7 G T E , 2 0 0 6
W L 8 2 0 6 6 5 7 ( E. D. A r k. S e pt. 1, 2 0 0 6) (s a m e ); Mi d dl et o n v. A n di n o ,
N o. 3: 2 0 -c v -0 1 7 3 0 -J M C, 2 0 2 0 W L 5 5 9 1 5 9 0 ( D. S. C. S e pt. 1 8, 2 0 2 0)
( B all ot C oll e cti o n), a p p e al fil e d , N o. 2 0-2 0 2 2 ( 4t h Ci r. S e pt. 2 2, 2 0 2 0) .
12

21
a n d h a s b e e n li mit e d t o p oli ci e s wit h s h a r pl y di s p a r at e
i m p a ct s o n t h e e q u alit y of o p p o rt u nit y t o v ot e. T o t h e
e xt e nt t h e o ut c o m e of a n y of t h o s e i n di vi d u al c a s e s i s
i n c o r r e ct o r d e b at a bl e, t h e p r o p e r t o ol f o r r e m e d yi n g t h e
p r o bl e m i s a s c al p el, n ot a sl e d g e h a m m e r.
B.

T h e o v e r w h el mi n g m aj o ri t y of el e c t o r al p oli ci e s
r e a dil y w i t h s t a n d a Se c ti o n 2 v o t e -d e ni al c h all e n g e

S e cti o n 2 c o nt ai n s n u m e r o u s s af e g u a r d s t h at t og et h e r e n s u r e t h at el e cti o n offi ci al s c a n f ait hf ull y p e rf o r m t h ei r d uti e s w hil e a v oi di n g p oli ci e s wit h u n d u e di sp a r at e i m p a ct s.
At t h e o ut s et, t h e all -e n c o m p a s si n g “t ot alit y of ci rc u m st a n c e s” t e st, 5 2 U. S. C. 1 0 3 0 1( b), p r ot e ct s a g ai n st
bli n dl y e xt e n di n g t h e r e s ult of a n y gi v e n S e cti o n 2 d e cisi o n t o a diff e r e nt j u ri s di cti o n: B y d efi niti o n, t h e “t ot alit y of ci r c u m st a n c e s,” i bi d., will b e diff e r e nt i n e a c h j uri s di cti o n. S o a d mi ni st r at o r s i n e a c h j u ri s di cti o n c a n f oc u s o n l o c al f a ct s a n d ci r c u m st a n c e s, wit h o ut u n d u e c o nc e r n a b o ut a S e cti o n 2 d e ci si o n i n v ol vi n g a diff e r e nt c o nfl u e n c e of ci r c u m st a n c e s. F o r e x a m pl e, t h e “t ot alit y of
ci r c u m st a n c e s” i n A ri z o n a wit h r e g a r d t o it s o ut -of -p r eci n ct v oti n g p oli c y i s m a r k e dl y diff e r e nt f r o m t h o s e i n
a n y ot h e r St at e. S e e P et. A p p. 4 4 -4 5, 7 1 -7 2 ; s e e al s o i d.
at 1 3 ( r e p r o d u ci n g c h a rt s h o wi n g o utli e r eff e ct of p oli c y
i n A ri z o n a).
S e c o n d, t h e v a st m aj o rit y of st at e a n d l o c al el e ct o r al
l a w s a n d p oli ci e s a r e pl ai nl y v ali d u n d e r S e cti o n 2 b ec a u s e t h e y d o n ot c a u s e a n y m e a ni n gf ul di s p a rit y i n “ o pp o rt u nit y” f o r m e m b e r s of a r a ci al g r o u p “t o p a rti ci p at e
i n t h e p oliti c al p r o c e s s a n d t o el e ct r e p r e s e nt ati v e s of
t h ei r c h oi c e.” 5 2 U. S. C. 1 0 3 0 1( b). F u rt h e r m o r e , a s t h e
c o u rt s of a p p e al s r e c o g ni z e , “ a b a r e st ati sti c al s h o wi n g
of di s p r o p o rti o n at e i m p a ct o n a r a ci al mi n o rit y d o e s n ot

22
s ati sf y t h e § 2 ‘ r e s ult s’ i n q ui r y.” S mit h v. S alt Ri v e r P r oj e ct A g r. I m p. & P o w e r Di st., 1 0 9 F. 3 d 5 8 6, 5 9 5 ( 9t h Ci r.
1 9 9 7) ; s e e al s o T e x a s D e p’t of H o u s. & C mt y. Aff ai r s v.
I n cl u si v e C o m m u niti e s P r oj e ct, I n c. , 5 7 6 U. S. 5 1 9, 5 4 0
( 2 0 1 5). R at h e r, a pl ai ntiff m u st o v e r c o m e a s e ri e s of a dditi o n al h u r dl e s.
F o r i n st a n c e , i n a s s e s si n g w h et h e r a c h all e n g e d p oli c y m e a ni n gf ull y a b ri d g e s t h e e q u alit y of “o p p o rt u nit y
… t o p a rti ci p at e i n t h e p oliti c al p r o c e s s, ” 5 2 U. S. C.
1 0 3 0 1( b), t h e i n q ui r y m u st t a k e i nt o a c c o u nt t h e e xt e nt
t o w hi c h t h e aff e ct e d v ot e r s h a v e , i n f a ct, r e al alt e r n ati v e s t o all o w t he m t o p a rti ci p at e, n ot j u st alt e r n ati v e s
i n t h e o r y. A S e cti o n 2 pl ai ntiff al s o m u st s h o w t h at t h e
c h all e n g e d p r a cti c e “i nt e r a ct s wit h s o ci al a n d hi st o ri c al
c o n diti o n s t o c a u s e a n i n e q u alit y i n t h e o p p o rt u niti e s ”
of a r a ci al g r o u p “ t o el e ct t h ei r p r ef e r r e d r e p r e s e nt ati v e s.” Gi n gl e s , 4 7 8 U. S. at 4 7. T h u s, if t h e di s p a riti e s d o
n ot a ri s e f r o m t h e i nt e r a cti o n b et w e e n t h e c h all e n g e d
p r a cti c e a n d hi st o ri c al di s c ri mi n ati o n, t h e n a S e cti o n 2
cl ai m f ail s.
P e r h a p s m o st si g nifi c a nt i n a v ot e -d e ni al c h all e n g e
t o a f a ci all y n e ut r al p oli c y i s w h et h e r t h e p oli c y i s , i n
f a ct, s u p p o rt e d b y a v ali d a n d n o n -t e n u o u s j u stifi c ati o n,
s u c h a s t h e i nt e r e st i n p r e v e nti n g f r a u d o r t h e a p p e a ra n c e of f r a u d. S e e Gi n gl e s , 4 7 8 U. S. at 4 5 . “ Di s p a r at ei m p a ct li a bilit y m a n d at e s t h e ‘ r e m o v al of a rtifi ci al, a rbit r a r y, a n d u n n e c e s s a r y b a r ri e r s,’ n ot t h e di s pl a c e m e nt
of v ali d g o v e r n m e nt al p oli ci e s.” T e x a s D e p’t of H o u s. &
C mt y. Aff ai r s v. I n cl u si v e C o m m u niti e s P r oj e ct, I n c., 5 7 6
U. S. 5 1 9, 5 4 0, ( 2 0 1 5) ( q u oti n g G ri g g s v. D u k e P o w e r C o. ,
4 0 1 U. S. 4 2 4, 4 3 1 ( 1 9 7 1)).
F o r e x a m pl e , a nti -f r a u d m e a s u r e s c a n p r ot e ct t h e
“ o p p o rt u nit y” f o r a r a ci al g r o u p “t o p a rti ci p at e i n t h e p oliti c al p r o c e s s a n d t o el ect r e p r e s e nt ati v e s of t h ei r

23
c h oi c e,” 5 2 U. S. C. 1 0 3 0 1( b), b y p r e v e nti n g f r a u d ul e nt eff o rt s t o u n d o t h ei r el e ct o r al s u c c e s s at t h e p oll s. J u st a s
t h e ri g ht t o v ot e c a n b e d e ni e d o r dil ut e d o n t h e f r o nt
e n d t h r o u g h r e st ri cti o n s o r b u r d e n s o n c a sti n g m e a ni n gf ul b all ot s, it c a n al s o b e “ d e st r o y e d b y alt e r ati o n of b all ot s” o r “ dil ut e d b y b all ot-b o x st uffi n g” o r ot h e r f o r m s of
f r a u d. S e e R e y n ol d s , 3 7 7 U. S. at 5 5 5. T o a v oi d s u c h
p r o bl e m s, e l e cti o n offi ci al s r o uti n el y i m pl e m e nt a wi d e
v a ri et y of m e a s u r e s d e si g n e d t o e n s u r e t h e i nt e g rit y of
A m e ri c a n el e cti o n s. S e e, e. g. , C al. El e c. C o d e § 1 0. 5 ( e st a bli s hi n g a n “ Offi c e of El e cti o n s C y b e r s e c u rit y” t o “ r ed u c e t h e li k eli h o o d a n d s e v e rit y of c y b e r i n ci d e nt s t h at
c o ul d i nt e rf e r e wit h t h e s e c u rit y o r i nt e g rit y of el e cti o n s”
a n d “ m o nit o r a n d c o u nt e r a ct f al s e o r mi sl e a di n g i nf o rm ati o n r e g a r di n g t h e el e ct o r al p r o c e s s”); Fl a. St at. A n n.
§ 1 0 2. 0 3 1 (l o c al el e cti o n b o a r d “t o m ai nt ai n o r d e r at t h e
p oll s a n d e nf o r c e o b e di e n c e t o it s l a wf ul c o m m a n d s d u ri n g a n el e cti o n a n d t h e c a n v a s s o f t h e v ot e s”); T e x. El e c.
C o d e A n n. § 3 1. 0 0 5( a) ( s e c r et a r y of st at e t o “t a k e a p p r op ri at e a cti o n t o p r ot e ct t h e v oti n g ri g ht s of t h e citi z e n s
of t hi s st at e f r o m a b u s e b y t h e a ut h o riti e s a d mi ni st e ri n g t he st at e’ s el e ct o r al p r o c e s s e s”); W . V a. C o d e A n n.
§ 3 -1 A -5( b)( 3) ( st at e el e cti o n c o m mi s si o n a n d s e c r et a r y
of st at e “[t] o c o n si d e r a n d st u d y t h e el e cti o n p r a cti c e s of
ot h e r j u ri s di cti o n s, wit h a vi e w t o d et e r mi ni n g t h e t e c hni q u e s u s e d i n eli mi n ati n g f r a u d i n el e cti o n s a n d i n si mplif yi n g el e cti o n p r o c e d u r e s”); W y o. St at. A n n. § 2 2 -2 1 2 1( b) ( s e c r et a r y of st at e t o “ p r o m ul g at e s u c h r ul e s a s
a r e n e c e s s a r y t o m ai nt ai n u nif o r m v oti n g a n d v ot e
c o u nti n g p r o c e d u r e s a n d o r d e rl y v oti n g”).
T h e t e n u o u s n e s s i n q ui r y p r o vi d e s el e cti o n a d mi ni st r at o r s wit h c o n si d e r a bl e c o mf o rt. W h e n a j u ri s di cti o n
h a s a c o m m o n pl a c e r ul e f o r m ai nt ai ni n g el e cti o n i nt e grit y a n d a n y di s p a r at e eff e ct i n a j u ri s di cti o n o n v oti n g

24
p att e r n s i s n e gli gi bl e o r si mil a r t o t h at i n m y ri a d ot h e r
j u ri s di cti o n s, t h e n t h e j u stifi c ati o n f o r t h at r e st ri cti o n
will b e r e a dil y a p p a r e nt, n ot t e n u o u s, a n d t h e p r o vi si o n
will li k el y s ati sf y S e cti o n 2. St at e a n d l o c al el e cti o n a dmi ni st r at o r s i n t u r n h a v e s u b st a nti al fl e xi bilit y i n c r afti n g v ali d el e cti o n p r a cti c e s.
Of c o u r s e, if a j u ri s di cti o n a d o pt s a n u n u s u al r ul e
t h at c a u s e s a m a r k e dl y di s p a r at e i m p a ct, o r if ci r c u mst a n c e s o n t h e g r o u n d i n t h at j u ri s di cti o n m e a n t h at a n
ot h e r wi s e c o m m o n pl a c e r ul e a ct u all y h a s a n o utli e r eff e ct o n e q u alit y of o p p o rt u nit y t o v ot e, t h e n t h e m e r e i nv o c ati o n of a p ot e nti all y v ali d j u stifi c at i on will b e i n s uffi ci e nt. A s t h e Ni nt h Ci r c uit p r o p e rl y n ot e d , th e a s s e rt e d
j u stifi c ati o n m u st b e a ct u al a n d s u b st a nti al, n ot p r et e xt u al o r t e n u o u s. P et. A p p. 8 0 -8 1 .1 4
S e cti o n 2 t h u s d e m a n d s a c o nt e xt -s e n siti v e i n q ui r y.
D e c a d e s of e x p e ri e n c e s h o w t h at it d o e s n ot c r e at e a sli pp e r y sl o p e, a n d i n st e a d i s n a r r o wl y t ail o r e d t o p r ot e ct
t h e e q u al o p p o rt u nit y t o v ot e.

T h e a b s e n c e of a v ali d n o n -t e n u o u s j u stifi c ati o n i s p a rti c ul a rl y
cl e a r w h e r e, a s h e r e wit h r e g a r d t o t h e b all ot -c ol l e cti o n p r o hi biti o n,
t h e r e i s a f a ct u al fi n di n g t h at t h e a s s e rt e d j u stifi c ati o n w a s p r et e xt u al a n d t h at t h e r e al m oti v ati o n w a s i n vi di o u s r a ci al di s c ri min ati o n. S e e P et. A p p. 1 0 3 (“[ D]i s c ri mi n at o r y i nt e nt w a s a m oti v ati n g f a ct o r i n e n a cti n g H. B. 2 0 2 3”).
14

25
C O N C L U SI O N

T h e j u d g m e nt of t h e c o u rt of a p p e al s s h o ul d b e affi r m e d.
R e s p e ctf ull y s u b mitt e d.
A A R O N J. S H A D D Y
W EI L , G O T S H A L & M A N G E S L L P
7 6 7 Fift h A v e n u e
N e w Y o r k, N Y 1 0 1 5 3
K AI T LI N P A U L S O N
W EI L , G O T S H A L & M A N G E S L L P
2 0 1 R e d w o o d S h or es P ar k w a y
R e d w o o d S h o r e s, C A 9 4 0 6 5
JA N U A RY 2021

Z A C H A R Y D. T RI P P
C o u n s el of R e c o r d
W EI L , G O T S H A L & M A N G E S L L P
2 0 0 1 M St r e et N W
W a s hi n gt o n, D C 2 0 0 3 6
( 2 0 2) 6 8 2-7 0 0 0
z a c k.t ri p p @ w eil. c o m

A P P E N DI X

1a
A P P E N DI X A

Li s t of A mi ci C u ri a e

1

C at h y D a rli n g All e n, Cl e r k, S h a st a C o u nt y, C alif o r ni a
A a r o n A m m o n s , Cl e r k , C h a m p ai g n C o u nt y, Illi n oi s
J uli e A n d e r s o n, A u dit o r, Pi e r c e C o u nt y, W a s hi n gt o n
G a r y B a rtl ett, f o r m e r E x e c uti v e Di r e ct o r, B o a r d of El e cti o n s, N o rt h C a r oli n a
S h e n n a B ell o w s, S e c r et a r y of St at e , M ai n e
J o c el y n B e n s o n , S e c r et a r y of St at e , Mi c hi g a n
C h ri s Bi g g s, f o r m e r S e c r et a r y of St at e, K a n s a s
Ti m ot h y B u r k e, f o r m e r M e m b e r, B o a r d of El e cti o n s,
H a milt o n C o u nt y, O hi o
D a m o n Ci r c o st a, C h ai r , St at e B o a r d of El e cti o n s, N o rt h
C a r oli n a
Ji m C o n d o s, S e c r et a r y of St at e, V e r m o nt
Mi k e C o o n e y, f o r m e r S e c r et a r y of St at e, M o nt a n a
E d g a r d o C o rt e s, f o r m e r El e cti o n s C o m mi s si o n e r, Vi r gi n i a
D e v a ri e st e C u r r y , f o r m e r M e m b e r, B o a r d of El e cti o n s,
Di st ri ct of C ol u m bi a
D u sti n C z a r n y, C o m mi s si o n e r, C o u nt y B o a r d of El e cti o n s, O n o n d a g a C o u nt y, N e w Y o r k
S h e r r y L. D ai gl e, f o r m e r Cl e r k, T et o n C o u nt y, W y o mi n g
C o n n o r D e g a n, T o w n Cl e r k, H o p ki nt o n, M a s s a c h u s ett s
M a r k E a rl e y, S u p e r vi s o r of El e cti o n s, L e o n C o u nt y,
Fl o ri d a

T h e vi e w s of i n di vi d u al b o a r d m e m b e r s d o n ot n e c e s s a ril y r efl e ct t h e vi e w s of t h e b o a r d o n w hi c h t h e y s e r v e.
1

2a
M yl a El d ri d g e,
I n di a n a

Ci r c uit C o u rt Cl e r k ,

M a ri o n C o u nt y,

S h e mi a F a g a n, S e c r et a r y of St at e, O r e g o n
M. C at h e ri n e F a n ell o, C h ai r, El e cti o n B o a r d, St. J o s e p h
C o u nt y, I n di a n a
C al e b F a u x, M e m b e r, B o a r d of El e cti o n s,
C o u nt y, O hi o

H a milt o n

P at ri c k Gill, A u dit o r, W o o d b u r y C o u nt y, I o w a
J o e P a ul G o n z al e z, Cl e r k, A u dit o r, & R e c o r d e r R e gi st r a r of V ot e r s, S a n B e nit o C o u nt y, C alif o r ni a
N elli e G o r b e a, S e c r et a r y of St at e, R h o d e I sl a n d
Ali s o n L u n d e r g a n G ri m e s, f o r m e r S e c r et a r y of St at e,
K e nt u c k y
M a r y H all, A u dit o r, T h u r st o n C o u nt y, W a s hi n gt o n
T ri ci a H e r zf el d, S e c r et a r y, El e cti o n C o m mi s si o n, D avi d s o n C o u nt y, T e n n e s s e e
T e r ri H olli n g s w o rt h, Cl e r k, P ul a s ki C o u nt y, A r k a n s a s
C h ri s H olli n s, f o r m e r Cl e r k, H a r ri s C o u nt y, T e x a s
Y v ett e I s b u r g, A u dit o r , B uff al o C o u nt y, S o ut h D a k ot a
T o ni J o h n s o n, C h ai r,
C o u nt y, Mi s si s si p pi

El e cti o n

C o m mi s si o n,

Hi n d s

J a s o n K a n d e r, f o r m e r S e c r et a r y of St at e, Mi s s o u ri
P hil K ei sli n g, f o r m e r S e c r et a r y of St at e, O r e g o n
K e vi n K e n n e d y, f o r me r C hi ef El e cti o n Offi ci al, Wi s c o n si n
J u d g e Al a n Ki n g ( R eti r e d), P r o b at e & C hi ef El e cti o n Offi c e r, J eff e r s o n C o u nt y, Al a b a m a
B ri a n n a L e n n o n, Cl e r k, B o o n e C o u nt y, Mi s s o u ri

3a
J o h n Li n d b a c k, f o r m e r C hi ef of St aff t o Li e ut e n a nt G o v e rn o r, Al a s k a; f o r m e r H e a d, Di vi si o n of El e cti o n s, O r e g o n
D e a n L o g a n, R e gi st r a r -R e c o r d e r a n d C o u nt y Cl e r k, L o s
A n g el e s C o u nt y, C alif o r ni a
I s a b el L o n g o ri a,
C o u nt y, T e x a s

El e cti o n

A d mi ni st r at o r,

H a r ri s

A b bi e M a c e , Cl e r k , F r e e m o nt C o u nt y, I d a h o
Ri c h a r d M a h o n e y, f o r m e r S e c r et a r y o f St at e, A ri z o n a
G w e n M c F a rli n, C h ai r,
H a milt o n C o u nt y, O hi o

C o u nt y

B o a r d of

El e cti o n s,

P a d d y M c G ui r e, A u dit o r, M a s o n C o u nt y, W a s hi n gt o n
A m b e r M c R e y n ol d s , f o r m e r Di r e ct o r of El e cti o n s i n
D e n v e r , C ol o r a d o
D e ni s e M e r rill, S e c r et a r y of St at e, C o n n e cti c ut
Ali c e P. Mill e r, Di r e ct o r, B o a r d of El e cti o n s, Di st ri ct of
C ol u m bi a
Willi e M. Mill e r, El e cti o n
C o u nt y, Mi s si s si p pi

C o m mi s si o n e r,

Nox u bee

D a vi d O r r, f o r m e r Cl e r k, C o o k C o u nt y, Illi n oi s
Al e x P a dill a , f o r m e r S e c r et a r y of St at e a n d U. S. S e n at o r-d e si g n at e , C ali f or ni a 2
V e c h el D. R a df o r d, f o r m e r M e m b e r, B o a r d of El e cti o n s,
H a milt o n C o u nt y, O hi o
Mil e s S. R a p o p o rt, f o r m e r S e c r et a r y of St at e, C o n n e cti c ut
Willi a m D. Ri c h, C h ai r m a n, B o a r d of El e cti o n s, S u m mit
C o u nt y, O hi o
M r. P a dill a a g r e e d t o p a rti ci p at e a s a n a mi c u s c u ri a e w hil e s e r vi n g a s S e c r et a r y of St at e, b ut h a s b e e n a p p oi nt e d t o fill a v a c a n c y i n
t h e U. S. S e n at e.
2

4a
M a r k Rit c hi e, f o r m e r S e c r et a r y of St at e, Mi n n e s ot a
J e s s e S ali n a s, Cl e r k -R e c o r d e r, Y ol o C o u nt y, C alif o r ni a
I o n S a n c h o, f o r m e r S u p e r vi s o r of
C o u nt y, Fl o ri d a

El e cti o n s,

Leo n

St e v e Si m o n, S e c r et a r y of St at e, Mi n n e s ot a
G e o r g e St e r n, Cl e r k, J eff e r s o n C o u nt y, C ol o r a d o
S h e r ri e S w e n s e n , Cl e r k , S alt L a k e C o u nt y , Ut a h
S yl v e st e r T at e, El e cti o n
C o u nt y, Mi s si s si p pi

C o m mi s si o n e r,

Nox u bee

N at ali e T e n n a nt, f o r m e r S e c r et a r y of St at e, W e st Vi r gi ni a
M a g gi e T o ul o u s e -Oli v e r, S e c r et a r y of St at e, N e w M e xi c o
F r a n ci s Ul m e r, f o r m e r Li e ut e n a nt G o v e r n o r, Al a s k a
G r a nt V e e d e r, A u dit o r a n d C o m mi s si o n e r of El e cti o n s,
Bl a c k H a w k C o u nt y, I o w a
P att y W e e k s, Cl e r k, N e z P e r c e C o u nt y, I d a h o
T r a vi s W ei p e rt, A u dit o r, J o h n s o n C o u nt y, I o w a
J uli e Wi s e, Di r e ct o r of El e cti o n s, Ki n g C o u nt y,
i n gt o n

W a s h-

M a ri b et h Wit z el -B e hl, Cl e r k, M a di s o n Cit y, Wi s c o n si n
L e o n W ri g ht,
Mi c hi g a n

M u ni ci p al Cl e r k, V a n B u r e n T o w n s hi p,

D a vi d W o rl e y , M e m b e r, St at e B o a r d of El e cti o n s , G e o r gi a
Mi c h a el J. Zi c k a r , M e m b e r, B o a r d of El e cti o n s , W o o d
C o u nt y, O hi o

5a
A P P E N DI X B

S t a t e -l a w p r o vi si o n s r e g ul a ti n g b all o t c oll e c ti o n:
Al a. C o d e § 1 7 -1 1 -9
Al a s k a St at. § § 1 5. 2 0. 0 8 1( a), 1 5. 2 0. 0 7 2
A ri z. R e v. St at. § 1 6 -1 0 0 5
A r k. C o d e A n n. § 7 -5 -4 0 3
C al. El e c. C o d e § 3 0 1 7
C ol o. R e v. St at § 1 -7. 5 -1 0 7
C o n n. G e n. St at. A n n. § 9 -1 4 0 b
Fl. St at. A n n. § 1 0 1. 0 5 1
G a. C o d e A n n. § 2 1 -2 -3 8 5
1 0 Ill. C o m p. St at. A n n. 5/ 1 9 -6, 5/ 1 9 -1 3
I n d. C o d e A n n. § 3 -1 1 -1 0 -1
I o w a C o d e A n n. § § 5 3. 1 7, 5 3. 2 2
K a n. St at. A n n. § 2 5 -1 1 2 8
K y. R e v. St at. § 1 1 7. 0 8 6 3
L a. St at. A n n. § 1 8: 1 3 0 8( B)
M e. R e v. St at. tit. 2 1 -A, § 7 5 3 -B
M d. C o d e A n n., El e c. L a w § 9 -3 0 7
M a s s. G e n. L a w s A n n. c h. 5 4, § 9 2
Mi c h. C o m p. L a w s A n n. § 1 6 8. 7 6 4 a
Mi n n. St at. A n n. § 2 0 3 B. 0 8
M o. A n n. St at. § 1 1 5. 2 9 1
M o nt. C o d e A n n. § 1 3 -3 5 -7 0 3
N e b. R e v. St at. § 3 2 -9 4 3
N e v. R e v. St at. § 2 9 3. 3 5 3
N. H. R e v. St at. § 6 5 7: 1 7

6a
N. J. S t at. A n n. § § 1 9: 6 3-9, 1 9: 6 3 -1 6
N. M. St at. A n n. § 1 -6 -1 0. 1
N. C. G e n. St at. A n n. § § 1 6 3 -2 2 6. 3, 1 6 3 -2 3 1
N. D. C e nt. C o d e § 1 6. 1 -0 7 -0 8
O hi o R e v. C o d e A n n. § § 3 5 0 9. 0 5 , 3 5 0 9. 0 8
O kl a . St at. A n n. tit. 2 6, § 1 4-1 0 8
O r e. R e v. St at . § 2 5 4. 4 7 0
2 5 P a. C o n s. St at. § 3 1 4 6. 2 a
S. C. C o d e A n n. § 7 -1 5 -3 8 5
S. D. C o difi e d L a w s § § 1 2 -1 9 -9, 1 2 -1 9 -2. 2
T e x. El e c. C o d e A n n. § 8 6. 0 0 6
V a. C o d e A n n. § 2 4. 2 -7 0 5
W. V a. C o d e A n n. § 3 -3 -5
S t a t e -l a w p r o vi si o n s b a r ri n g t h e c o u n ti n g of o u t of -p r e ci n c t b all o t s :
Al a. C o d e § 1 7 -9 -1 0
A ri z. R e v. St at. § 1 6 -5 8 4( E)
C o n n. G e n. St at. A n n. § § 9 -2 3 2, 9 -2 3 2 n
D el. C o d e A n n. tit. 1 5, § 4 9 4 8( h)( 7) – ( 8)
Fl a. St at. A n n. § 1 0 1. 0 4 8( 2)( a)
H a w. C o d e R. § 3 -1 7 7 -5 5 4
1 0 Ill. C o m p. St at. A n n. 5/ 1 8 A -1 5( b)( 1)
I n d. C o d e A n n. § 3 -1 1. 7 -5 -3( a)
I o w a C o d e A n n. § 4 9. 9
3 1 K y. A d mi n. R e g s. 6: 0 2 0( 1 4)
Mi c h. C o m p. L a w s A n n. § 1 6 8. 8 1 3( 1)

7a
1 Mi s s. C o d e R. Pt. 1 0, E x h. A
M o. A n n. St at. § 1 1 5. 4 3 0( 2)( 1)
M o nt. C o d e A n n. § 1 3 -1 5 -1 0 7
N e b. R e v. St at. A n n. § 3 2 -1 0 0 2( 5)( e)
N e v. R e v. St at. A n n. § 2 9 3. 3 0 8 5
N. C. G e n. St at. A n n. § 1 6 3 -1 8 2. 2
O kl a. St a t. A n n. tit. 2 6, § 7-1 1 6. 1( C)
S. C. C o d e A n n. § 7 -1 3 -8 3 0
S. D. C o difi e d L a w s § 1 2 -2 0 -5. 1
T e n n. C o d e A n n. § 2 -7 -1 1 2( a)( 3)( B)( v)
T e x. El e c. C o d e A n n. § 6 5. 0 5 4( b)( 1)
Vt. St at. A n n. tit. 1 7, § § 2 1 2 1( a) , 2 5 5 7
V a. C o d e A n n. § 2 4. 2 -6 5 3 . 0 1
Wi s. St at. A n n. § 6. 9 7( 4)
W y o. St at. A n n. § 2 2 -1 5 -1 0 5( b)
S t a t e -l a w p r o vi si o n s r e g ul a ti n g e a rl y i n -p e r s o n
v o ti n g:
Al a. C o d e § § 1 7 -1 1 -3( a), 1 1 -5( a), 1 1 -9
Al a s k a St a t. A n n. § § 1 5. 2 0. 0 6 4, 1 5. 2 0. 0 4 5; Al a s k a A dmi n. C o d e tit. 6, § 2 5. 5 0 0
A ri z . R e v. St at. § § 1 6 -5 4 1, 1 6 -5 4 2
A r k. C o d e A n n. § 7 -5 -4 1 8
C al. El e c. C o d e § § 3 0 0 1, 3 0 1 8
C ol o. R e v. St at. A n n. § 1 -7. 5 -1 0 7. 2
Fl a. St at. A n n. § 1 0 1. 6 5 7
G a. C o d e A n n. § § 2 1 -2 -3 8 0, 2 1 -2 -3 8 1, 2 1 -2 -3 8 2

8a
H a w. R e v. St at. A n n. § 1 1 -1 0 9
I d a h o C o d e A n n. § § 3 4 -1 0 0 6, 3 4 -1 0 0 2
1 0 Ill. C o m p. St at. A n n. 5/ 1 9 A -1 5, 5/ 1 9 A -2 0
I n d. C o de A n n. § § 3 -1 1 -4 -1, 3 -1 1 -1 0 -2 6
I o w a C o d e § § 5 3. 1 0, 5 3. 1 1( b)
K a n. St at. A n n. § § 2 5 -1 1 1 9, 2 5 -1 1 2 2 a, 2 5 -1 1 2 3
L a. St at. A n n. § § 1 8: 1 3 0 3, 1 3 0 9
M e. St a t. tit. 2 1-A, § § 7 5 3 -B( 2), ( 8)
M d. C o d e A n n., El e c. L a w § 1 0 -3 0 1. 1
M a s s. G e n . L a w s A n n. c h. 5 4, § 2 5 B
Mi c h. C o n st. a rt. 2, § 4 ( a s a m e n d e d b y 2 0 1 8 Mi c h.
L e gi s. S e r v. R e f. M e a s. 1 8-3 ( P r o p o s al 1 8 -3))
Mi n n. St at. A n n. § § 2 0 3 B. 0 8 1, 2 0 3 B. 0 8 5
M o nt. C o d e A n n. § 1 3 -1 3 -2 0 5
N e b. R e v. St at. A n n. § § 3 2 -8 0 8, 3 2 -9 3 8, 3 2 -9 4 2
N e v. R e v. St at . A n n. § 2 9 3. 3 5 6 et s e q.
N. J. St at. A n n. § § 1 9: 6 3 -6 , 1 9: 6 3-1 2
N. M. St at. A n n. § 1 -6 -5. 7
N. Y. El e c. L a w § 8 -6 0 0
N. C. G e n. St at. A n n. § 1 6 3 -2 2 7. 2
N. D. C e nt. C o d e § 1 6. 1 -0 7 -1 5
O hi o R e v. C o d e A n n. § § 3 5 0 9. 0 1, 3 5 0 9. 0 5 1
O kl a. St at. A n n. tit. 2 6, § 1 4 -1 1 5. 4
O r. R e v. St at. A n n. § 2 5 4. 4 7 0
2 5 P a. St at. A n n. § § 3 1 4 6. 2 a , 3 1 4 6. 6
R.I. G e n. L a w s § 1 7 -2 0 -2. 2
S. D. C o difi e d L a w s § § 1 2 -1 9 -1. 2, 1 2 -1 9 -2. 1

9a
T e n n. C o d e A n n. § 2 -6 -1 0 2( a)( 1)
T e x. El e c. C o d e A n n. § § 8 5. 0 0 1, 8 5. 0 0 2
Ut a h C o d e A n n. § 2 0 A -3 a -6 0 1
Vt. St at. A n n. tit. 1 7, § § 2 5 3 1 – 2 5 3 7
V a. C o d e A n n. § 2 4. 2 -7 0 1. 1
W a s h. R e v. C o d e A n n. § 2 9 A. 4 0. 1 6 0
W. V a. C o d e A n n. § 3 -3 -3
Wi s. St at. A n n. § 6. 8 6( 1)( b)
W y o. S t at. A n n. § § 2 2-9 -1 0 5, 2 2 -9 -1 2 5
S t a t e -l a w p r o vi si o n s r e q ui ri n g v o t e r I D:
Al a. C o d e § 1 7 -9 -3 0
Al a s k a St at. A n n. § 1 5. 1 5. 2 2 5
A ri z. R e v . St at. A n n. § 1 6-5 7 9( A)( 1)( a)
A r k. C o n st. a m e n d. LI, § 1 3 ; A r k. C o d e A n n. § 7 -5 -3 0 5
C ol o. R e v. St at. A n n. § § 1 -1 -1 0 4( 1 9. 5) , 1-7 -1 1 0
C o n n. G e n. St at. A n n. § 9 -2 6 1
D el. C o d e A n n. tit. 1 5, § 4 9 3 7
Fl a. St at. A n n. § 1 0 1. 0 4 3
G a. C o d e A n n. § 2 1 -2 -4 1 7
H a w. R e v. St at. A n n. § 1 1 -1 3 6 ( R e p e al e d eff e cti v e J ul y
1, 2 0 1 9 b y 2 0 1 9 H a w. S e s s. L a w s 1 3 6 § § 4 9 -5 2 )
I d a h o C o d e A n n. § § 3 4-1 1 0 6, 3 4 -1 1 1 3, 3 4 -1 1 1 4
I n d. C o d e. A n n. § § 3 -5 -2 -4 0. 5, 3 -1 1 -8 -2 5. 1
I o w a C o d e § 4 8 a. 7 a
K a n. St at. A n n. § § 2 5 -2 9 0 8, 2 5 -1 1 2 2, 8 -1 3 2 4
K y. R e v. St at. A n n. § 1 1 7. 2 2 7

10a
3 1 K y. A d mi n. R e g s. 4: 0 1 0
L a. St at. A n n. § 1 8: 5 6 2
M i c h. C o m p. L a w s A n n. § 1 6 8. 5 2 3
Mi s s. C o d e A n n. § 2 3 -1 5 -5 6 3
M o. R e v. St at. § 1 1 5. 4 2 7
M o nt. C o d e A n n. § 1 3 -1 3 -1 1 4
N. H. R e v. St at. A n n. § 6 5 9: 1 3
N. C. G e n. St at. A n n. § 1 6 3 -1 6 6. 1 6
N. D. C e nt. C o d e § 1 6. 1 -0 5 -0 7
O hi o R e v. C o d e A n n. § 3 5 0 5. 1 8
O kl a. St at. A n n. tit. 2 6, § 7 -1 1 4
R.I. G e n. L a w s § 1 7 -1 9 -2 4. 2
S. C. C o d e A n n. § 7 -1 3 -7 1 0
S. D. C o difi e d L a w s § § 1 2 -1 8 -6. 1, 1 2 -1 8 -6. 2
T e n n. C o d e A n n. § 2 -7 -1 1 2
T e x. El e c. C o d e A n n. § § 6 3. 0 0 1, 6 3. 0 1 0 1
Ut a h C o d e A n n. § § 2 0 a -1 -1 0 2, 2 0 a -3 a -2 0 3
V a. C o d e A n n. § 2 4. 2 -6 4 3
W a s h. R e v. C o d e A n n. § 2 9 a. 4 0. 1 6 0
W. V a. C o d e A n n. § 3 -1 -3 4
W i s. St at. § § 5. 0 2( 6 m), 6. 7 9( 2 a)

